<html>
<title> - IMPROVING THE HYDROPOWER LICENSING PROCESS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
               IMPROVING THE HYDROPOWER LICENSING PROCESS

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 7, 2018

                               __________

                           Serial No. 115-137
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                        
                          _________

              U.S. GOVERNMENT PUBLISHING OFFICE
                   
34-508 PDF             WASHINGTON : 2019      
                        
                        
                        


                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana             Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

                         Subcommittee on Energy

                          FRED UPTON, Michigan
                                 Chairman
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    JERRY McNERNEY, California
JOHN SHIMKUS, Illinois               SCOTT H. PETERS, California
ROBERT E. LATTA, Ohio                GENE GREEN, Texas
GREGG HARPER, Mississippi            MICHAEL F. DOYLE, Pennsylvania
DAVID B. McKINLEY, West Virginia     KATHY CASTOR, Florida
ADAM KINZINGER, Illinois             JOHN P. SARBANES, Maryland
H. MORGAN GRIFFITH, Virginia         PETER WELCH, Vermont
BILL JOHNSON, Ohio                   PAUL TONKO, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
MARKWAYNE MULLIN, Oklahoma               Massachusetts
RICHARD HUDSON, North Carolina       G.K. BUTTERFIELD, North Carolina
KEVIN CRAMER, North Dakota           FRANK PALLONE, Jr., New Jersey (ex 
TIM WALBERG, Michigan                    officio)
JEFF DUNCAN, South Carolina
GREG WALDEN, Oregon (ex officio)

                                  (ii)
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     1
    Prepared statement...........................................     3
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     4
    Prepared statement...........................................     5
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     6
    Prepared statement...........................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     8
    Prepared statement...........................................    10

                               Witnesses

Terry L. Turpin, Director, Office of Energy Projects, Federal 
  Energy Regulatory Commission...................................    11
    Prepared statement...........................................    13
    Answers to submitted questions...............................    80
Chris Oliver, Assistant Administrator for Fisheries, National 
  Marine Fisheries Service, National Oceanic and Atmospheric 
  Administration, Department of Commerce.........................    20
    Prepared statement...........................................    22
    Answers to submitted questions \1\...........................    94
Greg Sheehan, Principal Deputy Director, U.S. Fish and Wildlife 
  Service, Department of the Interior............................    33
    Prepared statement...........................................    35
    Answers to submitted questions...............................    97
Ryan A. Fisher, Principal Deputy Assistant Secretary of the Army 
  for Civil Works, Army Corps of Engineers.......................    39
    Prepared statement...........................................    41
    Answers to submitted questions...............................   105
John Goodin, Acting Director, Office of Wetlands, Oceans, and 
  Watersheds, Office of Water, Environmental Protection Agency...    44
    Prepared statement...........................................    46
    Answers to submitted questions...............................   109

                           Submitted Material

Letter of June 4, 2018, from Dennis Daugaard, Chair, and David 
  Ige, Vice Chair, Western Governors' Association, to Hon. Paul 
  Ryan, Speaker of the House of Representatives, et al., 
  submitted by Mr. Upton.........................................    78

----------
\1\ Mr. Oliver did not answer submitted questions for the record 
  by the time of printing.


               IMPROVING THE HYDROPOWER LICENSING PROCESS

                              ----------                              


                         THURSDAY, JUNE 7, 2018

                  House of Representatives,
                            Subcommittee on Energy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 11:04 a.m., in 
room 2123, Rayburn House Office Building, Hon. Fred Upton 
(chairman of the subcommittee) presiding.
    Members present: Representatives Upton, Olson, Shimkus, 
Latta, Kinzinger, Griffith, Johnson, Long, Bucshon, Mullin, 
Walberg, Duncan, Walden (ex officio), Rush, McNerney, Peters, 
Green, Doyle, Castor, Sarbanes, Welch, Tonko, Loebsack, 
Kennedy, and Pallone (ex officio).
    Also present: Representative McMorris Rodgers.
    Staff present: Mike Bloomquist, Staff Director; Samantha 
Bopp, Staff Assistant; Kelly Collins, Legislative Clerk, 
Energy/Environment; Wyatt Ellertson, Professional Staff Member, 
Energy/Environment; Margaret Tucker Fogarty, Staff Assistant; 
Jordan Haverly, Policy Coordinator, Environment; Mary Martin, 
Chief Counsel, Energy/Environment; Sarah Matthews, Press 
Secretary; Drew McDowell, Executive Assistant; Brandon Mooney, 
Deputy Chief Counsel, Energy; Mark Ratner, Policy Coordinator; 
Annelise Rickert, Counsel, Energy; Peter Spencer, Senior 
Professional Staff Member, Energy; Jason Stanek, Senior 
Counsel, Energy; Austin Stonebraker, Press Assistant; Hamlin 
Wade, Special Advisor for External Affairs; Everett Winnick, 
Director of Information Technology; Jean Fruci, Minority Policy 
Advisor, Energy and Environment; Rick Kessler, Minority Senior 
Advisor and Staff Director, Energy and Environment; John 
Marshall, Minority Policy Coordinator; Alexander Ratner, 
Minority Policy Analyst; Andrew Souvall, Minority Director of 
Communications, Member Services, and Outreach; and Catherine 
Zander, Minority Environment Fellow.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Good morning, everyone.
    Good morning again to you, Mr. Shimkus. He and I sat 
together for the last couple hours at our Republican 
conference.
    Today, the Energy Subcommittee--you'll read about it, 
right--the Energy Subcommittee is going to examine the benefits 
of our Nation's hydroelectric resources and how we can improve 
upon the existing framework to more efficiently license and 
relicense non-Federal hydropower projects in the U.S. and to 
help us better understand this complex and multi-agency 
process, we are joined by a great panel of experts representing 
five agencies that play a significant role in the hydro 
licensing process. So thank you for being here and appreciate 
you submitting your testimony to us in advance.
    Although the Nation's first hydroelectric plant began 
generating electricity back in 1882 in Wisconsin, we have been 
served by a dependable fleet of hydropower dams, many of which 
have been in operation since the early 1900s.
    Nearly 8 percent of the country's electricity is now 
produced by renewable hydro and that number has the potential 
to substantially grow in coming years as the demand for clean 
energy increases and as advancements in hydro technologies 
still occur.
    While the energy industry is in the midst of a debate 
regarding whether coal and nuclear resources should be 
compensated for their baseload characteristics, it is easy to 
overlook that hydro produces a significant amount of clean, 
zero emissions baseload electricity. Hydro also contributes to 
the flexible and reliable operations of the electric grid by 
providing more than just energy and capacity.
    Hydro facilities provide many ancillary services. In fact, 
the old-fashioned pumped-storage infrastructure which has been 
contributing to the grid since the 1920s closely resembles 
today's newer energy storage and battery technologies.
    Setting aside the many benefits that affordable hydro 
provides to our economy and national security, the focus of 
today's hearing relates to how non-Federal hydro projects are 
licensed and how that process can in fact be improved.
    As the lead agency for licensing, FERC is authorized by the 
Federal Power Act to review proposals for the construction of 
hydro facilities as well as to oversee the operations and 
safety of hydro facilities over their license term, ranging 
from 30 to 50 years.
    However, the licensing of new hydro and the relicensing of 
existing facilities requires extensive consultation with a 
number of resources and agencies at the Federal, State, and 
local levels.
    Those agencies, including NOAA, the Corps of Engineers, 
EPA, the U.S. Fish and Wildlife, plays an important role in 
lending their expertise and evaluating a range of impacts that 
a hydro project may have on the natural environment.
    Their collective analysis assists FERC in the preparation 
of an EIS and the input of these cooperating agencies can 
influence the mandatory conditions that a hydro developer must 
agree to follow in order to receive a license approval from 
FERC.
    Unfortunately, we have heard of a number of instances where 
resource agencies are failing to cooperate with FERC by 
withholding necessary authorizations to allow the project to 
proceed.
    And while a typical relicensing action ought to take about 
5 years, it is not uncommon for the project to stretch much 
longer. Just last month, FERC Chairman McIntyre provided us 
with a long list of hydro projects that are waiting for other 
agencies to act before FERC can even issue a decision.
    Too frequently, FERC cannot take final action because other 
agencies such as the National Marine Fisheries Service or the 
Fish and Wildlife, et cetera, have not completed the 
consultation pursuant to the Endangered Species Act.
    In other instances, FERC has been waiting years for a State 
agency to issue a water quality certification under section 401 
of the Clean Water Act. In one case, FERC completed the NEPA 
review in 2004, but they are still waiting on approvals from a 
California State agency and Fish and Wildlife. Obviously, 
that's 14 years.
    We can't allow important infrastructure projects as hydro 
to fall victim to an endless bureaucratic process. It's not 
fair. I am optimistic that these agencies will make progress 
towards improving their coordination and the timely processing 
of environmental reviews.
    Notably, the agencies appearing today, along with many 
others, signed an MOU a couple months ago to seek a cooperative 
relationship and expedite authorizations of major 
infrastructure projects, such as hydro facilities.
    So we welcome your attendance today.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Good morning. Today, the Energy Subcommittee will examine 
the benefits of our Nation's hydroelectric resources and how we 
can improve upon the existing framework to more efficiently 
license and relicense non-Federal hydropower projects in the 
United States. To help us better understand this complex and 
multiagency process, we are joined by a panel of experts 
representing five agencies that play a significant role in the 
hydro licensing process. Thank you for being here to testify 
this morning.
    Although the Nation's first hydroelectric plant began 
generating electricity in 1882 in Wisconsin, next door in 
Michigan we have been served by a dependable fleet of 
hydropower dams--many of which have been in operation since the 
early 1900s. Nearly 8 percent of the country's electricity is 
now produced by renewable hydropower. That number has the 
potential to substantially grow in coming years as the demand 
for clean energy increases, and as advancements in hydro 
technologies occur.
    While the energy industry is in the midst of a debate 
regarding whether coal and nuclear resources should be 
compensated for their baseload characteristics, it is easy to 
overlook that hydropower produces a significant amount of 
clean, zero emissions, baseload electricity. Hydropower also 
contributes to the flexible and reliable operations of the 
electric grid by providing more than just energy and capacity. 
Hydropower facilities provide many ancillary services. In fact, 
the oldfashioned pumped-storage infrastructure which has been 
contributing to the grid since the 1920s closely resembles 
today's newer energy storage and battery technologies.
    Setting aside the many benefits that affordable hydropower 
provides to our economy and national security, the focus of 
today's hearing relates to how non- Federal hydropower projects 
are licensed and how this process can be improved. As the lead 
agency for licensing, the Federal Energy Regulatory Commission 
is authorized by the Federal Power Act to review proposals for 
the construction of hydropower facilities, as well as to 
oversee the operations and safety of hydro facilities over 
their license term, ranging from 30 to 50 years.
    However, the licensing of new hydropower facilities and the 
relicensing of existing facilities requires extensive 
consultation with various resources agencies at the Federal, 
State, and local levels. Those agencies, including NOAA, the 
Army Corps of Engineers, EPA, and the U.S. Fish and Wildlife 
Service play an important role in lending their expertise and 
evaluating a range of impacts that a hydro project may have on 
the natural environment. Their collective analysis assists FERC 
in the preparation of an Environmental Impact Statement (or 
``EIS''), and the input of these ``cooperating agencies'' can 
influence the mandatory conditions that a hydro developer must 
agree to follow in order to receive a license approval from 
FERC.
    Unfortunately, we have heard of some instances and examples 
where resource agencies are failing to cooperate with FERC by 
withholding necessary authorizations to allow the project to 
proceed. While a typical relicensing action should take 
approximately 5 years according to FERC, it is not uncommon for 
the process to stretch much longer. Just last month, FERC 
Chairman McIntyre provided me with a long list of hydro 
projects that are waiting for other agencies to act before FERC 
can issue a decision.
    Too frequently, FERC cannot take final action because other 
agencies such as the National Marine Fisheries Service or the 
Fish and Wildlife Service have not completed its consultation 
pursuant to the Endangered Species Act. In other instances, 
FERC has been waiting years for a State agency to issue a water 
quality certification under section 401 of the Clean Water Act. 
In one case, FERC completed its NEPA review in 2004, but is 
still waiting on approvals from a California State agency and 
Fish and Wildlife. That's 14 years!
    We cannot allow important infrastructure such as hydropower 
projects to fall victim to an endless bureaucratic process--
it's simply not fair. I am optimistic, however, that these 
agencies will make progress towards improving their 
coordination and the timely processing of environmental 
reviews. Notably, the agencies appearing today, along with many 
others, signed an MOU in April seeking to establish a 
``cooperative relationship'' and expedite authorizations of 
major infrastructure projects, including hydropower facilities.
    I look forward to hearing from our agency witnesses on how 
together we can improve and streamline the existing licensing 
process and, in turn, encourage the development of new and 
needed hydropower resources in the United States.

    Mr. Upton. I would ask unanimous consent to put a statement 
in the record from a colleague not on our committee, Mr. 
Poliquin, into the record.
    Without dissent, it will be part of the record.
    And I will yield 5 minutes to the ranking member of the 
subcommittee, Mr. Rush.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. I want to thank you, Mr. Chairman, for holding 
today's hearing on improving the hydropower licensing process.
    Although, Mr. Chairman, I must admit, this hearing would 
have been even more helpful if it had occurred before this 
subcommittee passed legislation making sweeping changes to that 
licensing process such as H.R. 3043 last year.
    Mr. Chairman, as we have previously discussed on many 
occasions, hydropower is supported by Members on both sides of 
the aisle.
    However, the process for how we license these projects is 
too important for us to get it wrong by making changes that 
could lead to negative unintended consequences.
    After all, Mr. Chairman, we must remember that 
hydroelectric licensing can span between 30 to 50 years, and 
under existing law a license holder can be granted automatic 
yearly extension in perpetuity without even having to reapply.
    Mr. Chairman, any potential changes to this process must 
include a balanced approach that protects the rights of Federal 
resource agencies, States, and Native Tribes to impose 
conditions in accordance with modern environmental law.
    As you may remember, Mr. Chairman, I offered such an 
approach in the form of an amendment in the nature of a 
substitute to H.R. 3043 on the floor of the House last 
December.
    While that amendment was defeated, I continue to urge the 
majority to work with our side to address this issue in a 
bipartisan manner if we are to truly enact legislation that can 
pass both chambers of Congress and truly help improve the 
licensing process.
    Mr. Chairman, I remain very leery of supporting any 
approach that will make FERC the lead agency over the licensing 
process and would require Native Tribes, the States, and 
Federal resource agencies to pay deference to FERC.
    This is especially true when it comes to matters where FERC 
has absolutely no expertise or statutory authority, including 
on issues regarding agricultural water use, drinking water 
protection, fisheries management, and recreational river use.
    Initially, Mr. Chairman, in past testimony before this 
subcommittee we have heard repeatedly that a major cause for 
the licensing delays was due to the incomplete application that 
do not include all the pertinent information necessary to issue 
a final decision while none of the bills previously passed out 
of this subcommittee have done anything to address this issue.
    The minority side, Mr. Chairman, has offered an approach 
that would address the critical concerns. In the amendment that 
I offered during the floor debate on H.R. 3043, FERC, and the 
other Federal resource agencies would be directed to convene a 
negotiating rulemaking when all stakeholders include State and 
local government representatives as well as Native Tribes.
    These stakeholders would then collaboratively develop a 
process to coordinate all necessary Federal authorizations and 
to enable the Commission to make a final determination on a 
license not later than 3 years of receiving a completed license 
application.
    Mr. Chairman, I continue to oppose any modification, and I 
look forward to today's hearing, and I want to welcome all the 
expert witnesses to this subcommittee hearing.
    Thank you, and I yield back.
    [The prepared statement of Mr. Rush follows:]

                Prepared statement of Hon. Bobby L. Rush

    Thank you, Mr. Chairman, for holding today's hearing on 
improving the hydropower licensing process.
    Although, I must admit that this hearing would have been 
even more helpful if it had occurred before this subcommittee 
passed legislation making sweeping changes to the licensing 
process, such as HR 3043 last year.
    Mr. Chairman, as we have previously discussed on many 
occasions, hydropower is supported by Members on both sides of 
the aisle.
    However, the process for how we license these projects is 
too important for us to get it wrong by making changes that 
could lead to negative unintended consequences.
    After all, we must remember that hydroelectric licenses can 
span between 30-50 years, and under existing law a license 
holder can be granted automatic yearly extensions in perpetuity 
without ever even having to re-apply.
    Mr. Chairman, any potential changes to this process must 
include a balanced approach that protects the rights of Federal 
resource agencies, States, and Native Tribes to impose 
conditions in accordance with modern environmental laws.
    As you may remember, Mr. Chairman, I offered such an 
approach in the form of an Amendment in the Nature of a 
Substitute to HR 3043 on the floor of the House last December.
    While that amendment was defeated, I continue to urge the 
majority to work with our side to address this issue in a 
bipartisan manner if we are to truly enact legislation that can 
pass both chambers of Congress and truly help improve the 
licensing process.
    Mr. Chairman, I remain very leery of supporting any 
approach that would make FERC the lead agency over the 
licensing process and would require Native Tribes, the States, 
and Federal resource agencies to pay deference to the 
Commission.
    This is especially true when it comes to matters where FERC 
has absolutely no expertise or statutory authority, including 
on issues regarding agricultural water use, drinking water 
protection, fisheries management, and recreational river use.
    Additionally, Mr. Chairman, in past testimony before this 
subcommittee we have heard repeatedly that a major cause for 
licensing delays was due to incomplete applications that do not 
include all the pertinent information necessary to issue a 
final decision.
    While none of the bills previously passed out of this 
subcommittee have done anything to address this issue, the 
minority side has offered an approach that would address this 
critical concern.
    In the amendment that I offered during floor debate of HR 
3043, FERC and the other Federal resource agencies would be 
directed to convene a negotiated rulemaking with all 
stakeholders, including State and local government 
representatives, as well as Native Tribes.
    These stakeholders would then collaboratively develop a 
process to coordinate all necessary Federal authorizations and 
enable the Commission to make a final decision on a license not 
later than 3 years of receiving a completed license 
application.
    Mr. Chairman, I will continue to oppose any modifications 
to the process that would give priority of our public waterways 
to industry, over and above the rights and interests of Native 
Tribes, farmers, fishermen, boaters, and other stakeholders who 
also rely on our public rivers and streams.
    I look forward to engaging today's panelists on the best 
way forward to improving this process in a fair, balanced, and 
transparent manner and with that I yield back the remainder of 
my time.

    Mr. Upton. Gentleman yields back.
    The Chair would recognize the chair of the full committee, 
Mr. Walden, from the good State of Oregon.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you, Mr. Upton. Good morning.
    And today's hearing will focus on ways to improve the 
hydropower licensing process. Hydropower, of course, is the 
Nation's largest source of clean, domestic, renewable energy.
    Unfortunately, as those of us certainly in the West know, 
the lengthy and unpredictable project licensing process 
disadvantages hydropower when compared to fossil fuel 
generation and other renewables, such as wind and solar.
    So this committee has defined and identified several ways 
to improve the permitting processes for hydropower licensing by 
modernizing the Federal Power Act.
    At the same time, the administration has taken promising 
steps with executive orders to bring greater discipline and 
accountability in the environmental review and permitting
    processes.
    Now, while these steps help, there is, clearly, more work 
that needs to be done. That's why we are here today.
    We need to make this process more predictable, more 
transparent, and more efficient.
    The purpose of today's hearing is to hear directly from 
those agencies most closely involved in the hydropower 
permitting process, to see what specific measures have been 
taken to increase the efficiency and effectiveness of your 
respective reviews.
    Today's hearing will also allow for a deeper discussion 
about the benefits of real statutory reforms, such as those 
that have already passed through this committee and, by the 
way, through the House floor.
    Given what's at stake, I'm optimistic our colleagues in the 
Senate will eventually be able to pass companion legislation so 
we can finally get these bills across the finish line.
    And, you know, hydropower is, clearly, near and dear to my 
heart. My district has a lot of the major main stem dams along 
the Columbia River and certainly up the Snake River as well. 
Our district is impacted in Oregon and, of course, Washington 
and Idaho.
    In fact, hydropower, mainly from projects of the Federal 
Government, is often able to supply up to two-thirds of our 
electricity generation, and I would argue it's also carbon 
free.
    The challenges of utilizing our hydro resources do not end 
with permitting and licensing, however. Despite decades of 
thorough science-backed analysis by many of these agencies here 
with us today, litigation and biology from the bench negatively 
impacts river operations and our ratepayers.
    In fact, this year, the Army Corps and Bonneville Power 
Administration are spilling water instead of generating power 
at full capacity.
    This all comes at a cost--nearly $40 million in increased 
rates to Pacific Northwest electric ratepayers this year alone, 
according to the Federal agencies that are involved.
    And it is not just the rates. BPA invested nearly $275 
million last year in fish projects across the Northwest. This 
spill, supposedly in the name of fish, undercuts that revenue 
stream as well.
    Now, the House recently passed H.R. 3144. This was 
legislation led by Cathy McMorris Rodgers, Kurt Schrader, and 
myself to provide certainty for operations of the hydro system 
and to protect ratepayers.
    So I'm hopeful our colleagues in the Senate will move this 
legislation forward as well to help tackle the challenges of 
operating the hydro system.
    There is no question that hydropower licensing is complex. 
There are lots of equities involved. It requires dozens of 
Federal, State, and local agencies to coordinate and balance a 
wide range of issues and competing interests, such as 
electricity production, flood control, Tribal issues, water 
navigation, and fish and wildlife issues.
    Recognizing this complexity, I look forward to hearing from 
our agency witnesses today--and, again, we thank you for being 
here--so we can gather together some suggestions on ways to 
improve the process--the licensing process.
    Not to diminish the environmental issues, not to diminish 
any of that, but just how do we streamline this--how do we make 
it more efficient--how do we get the answer sooner?
    So I thank you for being here.
    Mr. Chairman, I yield back the balance of my time.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Good morning. Today's hearing will focus on ways to improve 
the hydropower licensing process. Hydropower is the Nation's 
largest source of clean, domestic, renewable electricity. 
Unfortunately, the lengthy and unpredictable project licensing 
process disadvantages hydropower when compared to fossil fuel 
generation and other renewables, like wind and solar.
    This committee has identified several ways to improve the 
permitting process for hydropower licensing by modernizing the 
Federal Power Act. At the same time, the administration has 
taken promising steps with Executive Orders to bring greater 
discipline and accountability in the environmental review and 
permitting process. While there's no silver bullet, there's 
plenty of room to improve coordination, and to make the process 
more predictable and transparent.
    The purpose of today's hearing is to hear directly from 
those agencies most closely involved in the hydropower 
permitting process, to see what specific measures have been 
taken to increase the efficiency and effectiveness of their 
respective reviews. Today's hearing will also allow for a 
deeper discussion about the benefits of real, statutory 
reforms, such as those that have already passed through this 
committee and the House Floor. Given what's at stake, I'm 
optimistic that our colleagues in the Senate will eventually be 
able to pass companion legislation, so that we can finally get 
these bills across the finish line.
    Hydropower is near and dear to my heart because it supplies 
the majority of the power that we consume in the Pacific 
Northwest. In fact, in my home State of Oregon, hydropower, 
mainly from Federal projects, is often able to supply up to 
two-thirds of our electricity generation.
    The challenges of utilizing our hydro resources do not end 
with permitting and licensing, however. Despite decades of 
thorough, science backed analysis by many of the agencies here 
with us today, litigation and biology from the judicial bench 
negatively impacts river operations and ratepayers.
    This year, the Army Corps and Bonneville Power 
Administration are spilling water over dams instead of 
generating power at full capacity. This all comes at a cost. 
Nearly $40 million in increased rates to Pacific Northwest 
ratepayers this year, according to the Federal agencies. And it 
is not just rates. BPA invested nearly $275 million last year 
in fish projects across the Pacific Northwest. This spill--
supposedly in the name of fish--undercuts that revenue stream 
as well.
    The House recently passed H.R. 3144--legislation Cathy 
McMorris Rodgers, Kurt Schrader, and myself worked on to 
provide certainty for operations of the hydro system and 
protect ratepayers. I'm hopeful our colleagues in the Senate 
will move this legislation forward as well to help tackle the 
challenges of operating this hydro system.
    There is no question that hydropower licensing is complex--
it requires dozens of Federal, State, and local agencies to 
coordinate and balance a wide range of issues and competing 
interests, such as electricity production, flood control, water 
navigation, fish, and wildlife issues. Recognizing this 
complexity, I look forward to hearing from our agency 
witnesses, to gather suggestions on ways to improve the 
licensing process.
    Thank you, I yield back the balance of my time.

    Mr. Upton. The Chair yields back, and I yield now for an 
opening statement of the ranking member of the full committee, 
Mr. Pallone from New Jersey, 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    I am glad that we are holding a hydropower hearing with the 
Federal resource agencies. This is something we have been 
requesting ever since the committee began to consider changes 
to the hydropower licensing provisions of the Federal Power 
Act.
    And while we should have heard from these agencies before 
we moved legislation that fundamentally alters the licensing 
regime, I do appreciate the chairman convening this hearing 
today.
    And I hope we will follow this up with a hearing with 
States and Tribal governments on this issue since they are 
equal and critical stakeholders in this process who should not 
be ignored.
    Hydropower has provided reliable baseload electricity for a 
century. It's an important source of renewable energy and we 
certainly want it to continue providing power safely and 
reliably.
    At the same time, we can't ignore the fact that hydropower 
has major impacts on water quality, water supply and 
management, fish and wildlife populations, and other important 
physical and cultural resources, and we also must recognize 
that a lot of changes can occur over the period of a 30- to 50-
year hydro license.
    Just think of the dramatic changes that are possible in 
weather patterns, population, economic development, and 
competition for water resources.
    These issues must be analyzed and addressed during the 
licensing process and this is particularly important for 
facilities that were last licensed before modern environmental 
laws.
    This process will understandably be more complex and 
contentious. We must also guarantee dam safety and structural 
integrity are reviewed carefully during the process.
    The damage to the Oroville Dam in California last year that 
led to the evacuation of more than 180,000 people is a wake-up 
call.
    These dams and hydropower facilities are critical 
infrastructure that require investment and physical maintenance 
to ensure they are structurally sound and able to handle new 
conditions created by shifting weather patterns due to climate 
change.
    And I realize that companies and public power entities want 
faster more efficient decision making on their license 
application. Dealing with multiple Federal agencies, States, 
Tribal governments, and other water users is complex and time 
consuming.
    But the fuel these licenses are using--water--is a resource 
owned by all of us. It's essential for everyone's daily life 
and since licenses are granted from 30 to 50 years, the process 
must take proper account of the needs of others who also 
require the use of that water.
    FERC has the difficult task of coordinating all 
stakeholders in this process, and for the larger older 
facilities this is an especially difficult task.
    It is FERC's responsibility to ensure that license 
applicants provide all the necessary info for the Commission 
and all other participating agencies so they can make their 
decisions.
    An application is not complete until all participating 
agencies have the information required to make a sound analysis 
and support their decisions under the applicable laws, and I 
continue to believe that FERC could do more to support the 
information requests of other Federal agencies, States, and 
Tribes in these proceedings.
    Unfortunately, one of the largest sources of delay 
continues to be licenses failing to provide complete 
applications, making it nearly impossible for resource 
agencies, States and Tribal governments to complete their work 
on time.
    And because the law provides for unlimited automatic 1-year 
license extensions, licensees failing to provide that info can 
gain the process to their advantage without jeopardizing their 
license.
    So we need to put an end to this if we are serious about 
expediting the licensing process.
    So, Mr. Chairman, we can have clean water, thriving 
fisheries, healthy watersheds, good jobs, and affordable 
hydropower.
    But it requires cooperation, collaboration, and the 
inclusion of all stakeholders in the process, returning to the 
days when power was the only consideration, and issuing a 
license will not ensure that our water resources are managed to 
serve everyone's needs.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    I am glad that we are finally holding a hydropower hearing 
with the Federal resource agencies. This is something we have 
been requesting ever since the committee began to consider 
changes to the hydropower licensing provisions of the Federal 
Power Act. While we should have heard from these agencies 
before we moved legislation that fundamentally alters the 
licensing regime, I do appreciate the chairman convening this 
hearing today.
    I hope we will follow this up with a hearing with States 
and Tribal governments on this issue, since they are equal and 
critical stakeholders in this process who should not be 
ignored.
    Hydropower has provided reliable, baseload electricity for 
a century. It is an important source of renewable energy, and 
we certainly want it to continue providing power safely and 
reliably.
    At the same time, we cannot ignore the fact that hydropower 
has major impacts on water quality, water supply management, 
fish and wildlife populations, and other important physical and 
cultural resources. We also must recognize that a lot of 
changes can occur over the period of a 30- to 50-year hydro 
license. Just think of the dramatic changes that are possible 
in weather patterns, population, economic development, and 
competition for water resources. These issues must be analyzed 
and addressed during the licensing process. And this is 
particularly important for facilities that were last licensed 
before modern environmental laws. This process will 
understandably be more complex and contentious.
    We also must guarantee dam safety and structural integrity 
are reviewed carefully during this process. The damage to the 
Oroville Dam in California last year that led to the evacuation 
of more than 180,000 people is a wake-up call. These dams and 
hydropower facilities are critical infrastructure that require 
investment and physical maintenance to ensure they are 
structurally sound and able to handle new conditions created by 
shifting weather patterns due to climate change.
    I realize that companies and public power entities want 
faster, more efficient decision-making on their license 
applications. Dealing with multiple Federal agencies, States, 
Tribal governments, and other water users is complex and time-
consuming. But, the fuel these licensees are using--water--is a 
resource owned by all of us. It is essential for everyone's 
daily life. Since licenses are granted for 30 to 50 years, the 
process must take proper account of the needs of others who 
also require the use of that water.
    The Federal Energy Regulatory Commission has the difficult 
task of coordinating all stakeholders in this process. And, for 
the larger, older facilities, this is an especially difficult 
task. It is FERC's responsibility to ensure that license 
applicants provide all the necessary information for the 
Commission and all other participating agencies so they can 
make their decisions. An application is not complete until all 
participating agencies have the information required to make a 
sound analysis and support their decisions under the applicable 
laws.
    I continue to believe that FERC could do more to support 
the information requests of other Federal agencies, States, and 
Tribes in these proceedings.
    Unfortunately, one of the largest sources of delay 
continues to be licensees failing to provide complete 
applications, making it nearly impossible for resource 
agencies, States and Tribal governments to complete their work 
on time. And, because the law provides for unlimited, automatic 
1-year license extensions, licensees failing to provide that 
information can game the process to their advantage without 
jeopardizing their licenses. We need to put an end to this if 
we are serious about expediting the licensing process.
    We can have clean water, thriving fisheries, healthy 
watersheds, good jobs and affordable hydropower. It requires 
cooperation, collaboration and the inclusion of all 
stakeholders in the process. Returning to the days when power 
was the only consideration in issuing a license will not ensure 
that our water resources are managed to serve everyone's needs.

    Mr. Pallone. I'd like to yield the remainder of my time now 
to Mr. McNerney.
    Mr. McNerney. Well, I thank the ranking member. I thank the 
chairman for holding this hearing.
    Hydropower is an important energy resource but, like all 
energy resources, it has environmental down sides. A 
significant benefit, though, of hydropower is that it produces 
no greenhouse gases.
    So the question is do you believe that climate change is a 
problem or not. If you do, let's work together to minimize the 
down sides of hydropower.
    As Chairman Upton discussed, hydropower licensing and 
relicensing can take up to a decade of time and $50 million. 
Now, that's excessive and will prevent hydropower projects from 
going forward and that'll also prevent--it'll also help produce 
more greenhouse gases, which we want to avoid.
    So I ask my colleagues to work together on a bipartisan 
basis and make progress on hydropower licensing and 
relicensing, and let's not have the majority forcing through a 
program that will get bogged down in partisan fighting.
    Thank you. Mr. Chairman, I yield back.
    Mr. Pallone. Thank you, and I yield back, Mr. Chairman.
    Mr. Upton. The gentleman yields back. Thank you.
    All Members' opening statements will be made part of the 
record again to our panel. Thank you for your statements.
    We are going to give you now each 5 minutes to summarize 
your statement, at which point we will ask questions of both 
sides.
    Mr. Turpin, Deputy Director, Office of Energy Projects from 
FERC, welcome.

   STATEMENTS OF TERRY L. TURPIN, DIRECTOR, OFFICE OF ENERGY 
 PROJECTS, FEDERAL ENERGY REGULATORY COMMISSION; CHRIS OLIVER, 
    ASSISTANT ADMINISTRATOR FOR FISHERIES, NATIONAL MARINE 
      FISHERIES SERVICE, NATIONAL OCEANIC AND ATMOSPHERIC 
ADMINISTRATION, DEPARTMENT OF COMMERCE; GREG SHEEHAN, PRINCIPAL 
DEPUTY DIRECTOR, U.S. FISH AND WILDLIFE SERVICE, DEPARTMENT OF 
   THE INTERIOR; RYAN A. FISHER, PRINCIPAL DEPUTY ASSISTANT 
SECRETARY OF THE ARMY FOR CIVIL WORKS, ARMY CORPS OF ENGINEERS; 
 JOHN GOODIN, ACTING DIRECTOR, OFFICE OF WETLANDS, OCEANS, AND 
  WATERSHEDS, OFFICE OF WATER, ENVIRONMENTAL PROTECTION AGENCY

                  STATEMENT OF TERRY L. TURPIN

    Mr. Turpin. Thank you, sir.
    Good morning, Chairman Upton, Ranking Member Rush, and 
members of the committee.
    My name is Terry Turpin and I am Director of the Office of 
Energy Projects at the Federal Energy Regulatory Commission. 
The office is responsible for taking a lead role in carrying 
out the Commission's duties and siting infrastructure.
    This includes non-Federal hydropower projects, interstate 
natural gas pipelines and storage, and liquefied natural gas 
terminals.
    Thank you for the opportunity to appear before you today to 
discuss hydropower permitting and the Commission's processes 
for conducting the environmental reviews under the National 
Environmental Policy Act.
    As a member of the Commission's staff, the views I express 
in this testimony are my own and not necessarily those of the 
Commission or of any individual Commissioner.
    The Commission regulates over 1,600 non-Federal hydropower 
facilities projects at over 2,500 dams, which represents about 
half of the hydropower-generating capacity in the U.S.
    Under the Federal Power Act, the Commission acts as the 
lead agency for conducting the environmental review for both 
relicensing actions and for original licenses.
    To support these activities, FERC has established 
procedures to give stakeholders the opportunity to participate 
in collaborative public proceedings where all significant 
issues are identified and studied.
    The Commission must also ensure compliance with many 
statutes including the Coastal Zone Management Act, Wild and 
Scenic Rivers Act, National Historic Preservation Act, 
Endangered Species Act, and the Clean Water Act.
    These statutory requirements, along with those of the 
Federal Power Act, give multiple agencies a significant role in 
the licensing process.
    The Commission has, for many years, worked closely with 
other Federal and State agencies to complete reviews of 
infrastructure projects in an expeditious, coordinated, and 
transparent manner.
    Since fiscal year 2010, the Commission has issued 180 
hydropower licenses and small hydropower exemptions authorizing 
approximately 13 gigawatts of generation capacity.
    Earlier this year, Chairman McIntyre entered into the one 
Federal decision memorandum of understanding with several 
agencies.
    This MOU, which calls for a goal of completing action on 
all governmental decisions within 2 years, should encourage 
agencies to redouble their efforts in actively participating in 
the review process as well as in communicating their analysis 
needs to each other and to project sponsors so that the review 
process becomes more predictable, transparent, and efficient.
    This concludes my remarks and I'd be happy to answer any 
questions you have.
    [The prepared statement of Mr. Turpin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Mr. Upton. Well, I think you set the record for most time 
yielded back in my tenure not only as full committee chair but 
certainly as subcommittee chair as well.
    So Mr. Oliver, Assistant Administrator for Fisheries at 
NOAA, welcome to you. You don't have to beat the record, by the 
way. But welcome.

                   STATEMENT OF CHRIS OLIVER

    Mr. Oliver. Thank you, Chairman Upton and Ranking Member 
Rush, for the opportunity to testify.
    NOAA has authorities under the Federal Powers Act and the 
Endangered Species Act to protect and restore migratory fish 
and their habitats for new or relicensed FERC hydropower 
facilities.
    With more than a thousand hydropower dams licensed by FERC, 
we are busy keeping up with the demand to upgrade the Nation's 
hydropower infrastructure to meet today's environmental 
standards.
    Many migratory fish such as Pacific and Atlantic salmon, 
need access to both ocean and fresh water habitats to complete 
their life cycles. When dams block their upstream and 
downstream passage, migratory fish cannot reproduce, maintain, 
or grow their populations.
    On the West Coast alone, 28 salmonic species are listed 
under the ESA, many of which interact with hydropower 
operations and we have relicensed many FERC projects that have 
allowed for fish passage or other mitigation measures.
    The preferred approach for streamlining ESA consultation is 
to front load the ESA process into FERC's licensing steps.
    Use of the prefiling process improves the quality of 
hydropower applications filed with the Commission, accelerates 
the environmental review process, assists participants in 
assessing the resource impacts with the applicant's proposal, 
and evaluating reasonable alternatives pursuant to the NEPA 
requirements.
    It also allows participants to reach a negotiated 
settlement on all issues raised by a hydropower license 
application.
    As one example, on the Clackamas River project, 33 parties 
signed a negotiated settlement agreement, resulting in the 2010 
license renewal.
    We have had discussions with other agencies about how to 
better integrate these ESA consultations into the FERC 
licensing process.
    We are specifically working with Fish and Wildlife Service 
on our ESA implementing regulations to clarify and streamline 
Section 7 and Section 4 implementation.
    In general, we process ESA actions through three types of 
consultations--informal, formal, and programmatic. NOAA 
fisheries is committed to improving the processing time for 
informal consultations by 25 percent on average nationwide.
    In 2017, consultations took an average of 53 days 
informal--53 days from request to completion of the letter of 
concurrence.
    In the previous 4-year period, these took an average of 122 
days, which is an overall improvement of more than 50 percent. 
In addition, we are also focusing on increasing the use of 
programmatic consultations and increasing tracking and 
workforce management to improve time lines.
    We are also exploring improvements to our formal 
consultation process, which we intend to implement over the 
coming year.
    Building on our commitment to streamlining this process, we 
are also committed to implementing the provisions of EO 13807, 
the one Federal decision memorandum of understanding.
    We are currently in the process of developing an 
implementation plan that details specific actions we are 
planning to take to ensure the success of that policy.
    These include a centralized process for monitoring our 
authorizations and consultations, internal process improvements 
to reduce time lines, and particularly enhance coordination 
with lead and other cooperating agencies. We have a strong 
interest in avoiding unnecessary delays in the FERC licensing 
process.
    To cite a recent example of exercising flexibility in that 
licensing process pursuant to major projects on the Tuolumne 
River in California, in January of this year we chose not to 
require fish passage in that license renewal process.
    Rather, we reserved our mandatory fish passage conditioning 
authority under the FPA for the La Grange and Don Pedro 
projects until December of 2025. This reservation authority 
aligns with the time frames and conditions in the San Joaquin 
River Restoration Settlement Act and facilitates coordination 
of potential future fish passage actions for both Central 
Valley steel head and Central Valley's spring-run Chinook.
    When FERC issues a new license, they will decide whether to 
include NOAA's fish passage planning recommendations. We 
believe this is an example of carefully weighing the 
significant cost of fish passage against potential benefits 
while considering alternative mitigation measures through the 
settlement negotiation process.
    In addition, we recently conducted fish passage program 
review where a diverse external panel considered the 
effectiveness of our fish passage activities over the past 10 
years including those under our hydropower program.
    We look forward to receiving the recommendations provided 
by that panel on potential ways to improve our program 
effectiveness and we expect to that get that reported in the 
next couple of weeks.
    We remain committed to increasing our efficiency and 
effectiveness in this permitting process and I thank you for 
the opportunity again to testify and hope to be able to answer 
any questions that you have.
    [The prepared statement of Mr. Oliver follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Mr. Upton. Thank you very much.
    Mr. Sheehan, Principal Deputy Director of U.S. Fish and 
Wildlife, welcome.

                   STATEMENT OF GREG SHEEHAN

    Mr. Sheehan. Thank you, Chairman Upton and Ranking Member 
Rush and members of the subcommittee for an opportunity to 
testify today.
    My name is Greg Sheehan, Principal Deputy Director of the 
U.S. Fish and Wildlife Service. I do, again, want to thank you 
for an opportunity to testify on the important role of 
hydropower licensing process.
    The administration's goal is to streamline regulatory 
processes to facilitate the development of our infrastructure 
for energy, transportation, and other uses.
    We also recognize our responsibilities to ensure the 
appropriate conservation objectives of our Nation's fish and 
wildlife resources as part of review processes established 
under Federal statutes and serving those resources is important 
to current and future generations of Americans with their 
recreational, economic, and cultural values.
    The Fish and Wildlife Services' mission is working with 
others to conserve, protect, and enhance fish, wildlife, and 
plants and their habitats for the continuing benefit of the 
American people.
    In the licensing of hydroelectric dams, the working 
together part of our mission includes close and timely 
coordination with Federal, State, and Tribal partners as well 
as engagement with project applicants and open communications 
with the public.
    We recognize the role and importance of the Federal Energy 
Regulatory Commission as they regulate and license non-Federal 
hydroelectric projects.
    FERC authorizes initial construction issues, licenses for 
operation, and renews licenses every 30 to 50 years. FERC's 
licensing decisions are guided by the Federal Power Act.
    The law directs FERC to, quote, ``give equal consideration 
to the purposes of energy conservation, the protection and 
mitigation of damage to and enhancement of fish and wildlife, 
including related spawning grounds and habitat, the protection 
of recreational opportunities and the preservation of other 
aspects of environmental quality,'' end quote.
    The Federal Power Act also provides the avenue through 
which the Fish and Wildlife Services makes recommendations, in 
some cases prescribes conditions, to conserve fish and wildlife 
species and mitigate the impact of hydroelectric projects 
through those species.
    Hydroelectric dams span rivers and restrict natural flows. 
As a result, dams impede fish passage. This includes preventing 
migratory fish from reaching spawning grounds.
    Dams also change water temperature and water levels, which 
can adversely affect fish. Fish and Wildlife Service's role in 
the hydropower project licensing process is to recommend or 
prescribe solutions to restore the impact of those effects 
while still recognizing the goals of our Nation's clean 
renewable energy resources.
    When we are successful, our recommendations can contribute 
to species and habitat conservation as well as to energy 
development and energy production objectives.
    Although the review process provides important benefits, it 
can be complex and lengthy, and there are situations where 
licenses are delayed as a result.
    As the Fish and Wildlife Service works to achieve our 
conservation mission, we must also recognize the importance of 
hydropower to the administration's energy objectives.
    We are working within the Federal family to make sure we 
are efficient in implementing the law. One example, as you have 
heard already today, is President Trump's executive order 13807 
establishing discipline and accountability in the environmental 
review and permitting process for infrastructure.
    This executive order includes a framework to coordinate 
environmental reviews and authorizations under one lead agency. 
The goal is to facilitate improved coordination and timely 
decisions.
    This April, the Federal agencies involved in the permitting 
process including the Department of Interior signed an MOU on 
one Federal decision to implement the executive order and 
fulfilled the president's goal of completing permitting 
decisions within 2 years.
    Within the Department of Interior we also have been given 
secretarial direction to streamline time lines and document 
length for other types of reviews under NEPA.
    We are committed to improving the review process to 
facilitate environmentally sound hydropower operations through 
timely, transparent, and predictable reviews.
    In the review and permitting of complex hydropower 
projects, delays may occur. But we recognize that there are 
steps that the Government could take to be more efficient and 
provide more certainty for the relicensing of hydropower 
projects.
    We appreciate that subcommittee's interest in further 
improving the process. Thank you for the opportunity to discuss 
the service's work and the hydropower licensing process.
    I would be happy to address any questions that you may 
have.
    [The prepared statement of Mr. Sheehan follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Mr. Upton. Thank you.
    Mr. Fisher, Principal Deputy Assistant Secretary of the 
Army Corps of Engineers, thank you. Welcome, sir.

                  STATEMENT OF RYAN A. FISHER

    Mr. Fisher. Thank you, Mr. Chairman, Ranking Member Rush, 
distinguished members of the subcommittee.
    Thank you for the opportunity to testify before you today 
to discuss the U.S. Army Corps of Engineers' hydropower 
program.
    Like the chairman said, my name is Ryan Fisher. I am the 
Principal Deputy Assistant Secretary of the Army for Civil 
Works. Army Corps is the Nation's largest producer of 
hydropower.
    In total, the Corps owns 715 dams and has constructed 
hydropower projects at 75 of those, generate 353 generating 
units at a total capacity of over 21,000 megawatts.
    In addition, non-Federal interests have constructed 
hydropower projects at 68 other Corps-owned dams. These 
projects contain 199 generating units and produce a total 
capacity of 2,500 megawatts.
    In 2014, the Department of Energy released its non-powered 
dam resource assessment which listed the top 100 dams who were 
most likely to have the potential for commercial hydropower.
    Of those 100 dams, 81 are owned by the Corps of Engineers. 
In fiscal years 2016 and 2017, the Corps supported the 
development of non-Federal hydropower at 36 of its dams.
    In addition to these active projects, there are 
approximately another 60 planned hydropower projects. In 2016, 
the Corps and FERC renewed their MOU on non-Federal hydropower 
project development.
    In addition to renewing mutual commitment to early 
involvement and proactive participation, the two agencies laid 
out a synchronized two-phased environmental review process to 
be used during non-Federal hydropower development at Corps-
owned dams.
    This MOU reflects the commitment by both agencies to work 
together to facilitate non-Federal development of hydropower 
projects at Corps-owned dams when it is appropriate.
    Section 14 of the Rivers and Harbors Act of 1899--it's 
often referred to as Section 408--provides the--as amended, 
provides the basis for the Corps review of requests by non-
Federal interests to construct a hydropower project at a Corps-
owned dam.
    Section 408 provides the secretary of the Army the 
authority upon the recommendation of the chief of engineers to 
grant permission to other entities for the permanent or 
temporary alteration or use of any Corps civil works project.
    In order to address concerns we have heard from the public 
about the 408 process. The Corps has already implemented a few 
improvements.
    For instance, Section 408 decisions are being delegated to 
the lowest level possible. This has resulted in more than 95 
percent of such decisions being made at the Army Corps district 
level.
    Additionally, the Corps has clarified when Section 408 
permission is or is not required, and it's further clarified 
when the requirements of Section 408 may be met by another 
Corps authority or process, which has resulted in the reduction 
of redundancies.
    The Corps recognizes the importance of establishing a one 
Federal decision striction for environmental reviews throughout 
its program with the goal of it shortening environmental review 
time lines will still protecting the environment, including the 
need to eliminate redundance and unnecessary reviews, 
concurrences, and approvals as well as the importance of firm 
deadlines to complete review and make timely decisions.
    As a member of the Federal Permitting Improvement Steering 
Council, which facilitates the statutory responsibilities 
identified in the FAST-41 Act, the Army works with fellow 
council members to improve the timeliness, predictability, and 
transparency of the Federal environmental review and 
authorization process for covering infrastructure projects.
    In addition, the Corps is working to incorporate the 
objectives as FAST-41 and the Executive Order 13807, one 
Federal decision, into its directives, its manuals, its 
policies, and plans.
    For example, where FERC is the lead agency on a proposed 
Federal action that will also require a Corps approval or 
permit, the Corps works closely with FERC as a cooperating 
agency under NEPA.
    This enables the Corps to ensure that the information 
prepared by FERC is able to support a decision by the Corps 
under its Section 408 authority and any other Clean Water Act 
permits that might be applicable.
    U.S. Army Corps of Engineers is responsible for the dams 
that it owns and operates. We are consistent with the other 
authorized purposes of this infrastructure and other applicable 
law.
    The Corps stands ready to support the needs of non-Federal 
hydropower development.
    This concludes my testimony, Mr. Chairman. I thank you for 
being here and I look forward to answering any questions you 
might have.
    Thank you.
    [The prepared statement of Mr. Fisher follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Mr. Upton. Thank you.
    Mr. Goodin, Assistant Director for the Office of Wetlands 
at EPA, welcome to you.

                    STATEMENT OF JOHN GOODIN

    Mr. Goodin. Good morning, Chairman Upton, Ranking Member 
Rush, and members of the subcommittee, I am John Goodin, Acting 
Director of the Office of Wetlands, Oceans, and Watersheds at 
the Office of Water at U.S. Environmental Protection Agency.
    Thank you for the opportunity to be here before you today 
to discuss the Clean Water Act's State certification authority 
as it relates to Federal permits and licenses.
    Section 401 of the Clean Water Act provides States with an 
opportunity to evaluate and address aquatic resource impacts of 
federally issued licenses and permits including Federal Energy 
Regulatory Commission licenses for non-Federal hydroelectric 
dams.
    It is a direct grant of authority from Congress to the 
States. The statute does not provide EPA with the authority to 
review, approve, or deny State certification programs or 
individual State certification decisions.
    Under the statute, a State determines whether any discharge 
that may result from a federally licensed or permitted activity 
will comply with certain specified sections of the act 
including approved State water quality standards, effluent 
limitations, and monitoring requirements, as well as any other 
appropriate requirements of State law.
    A Federal agency cannot issue a license or a permit for an 
activity that may result in a discharge to waters until the 
State where the discharge would originate has granted or waived 
water quality certification.
    Congress sought to ensure that State certification did not 
unduly delay the issuance of Federal licenses or permits by 
providing that States complete their certification analysis and 
decision within a reasonable period of time which shall not 
exceed 1 year.
    Tribes with treatment as State status also may exercise 
certification authority. A State or Tribe may grant, deny, 
condition, or waive their certification of a Federal license or 
permit based in part on whether a discharge from the proposed 
project will comply with their water quality standards.
    Conditions imposed on a licensed or permitted activity 
assure compliance with any other appropriate provision of State 
law and must relate to water quality in one manner or another.
    Such conditions must become a term of the permit or license 
should it be issued. EPA has two primary roles with respect to 
water quality certification.
    First, the agency acts as the certifying agency where the 
proposed discharge would originate in a jurisdiction without 
such authority. Most typically, that is on Tribal lands lacking 
treatment as State status.
    Second, where EPA has determined that the proposed 
discharge may affect neighboring jurisdictions, the statute 
requires EPA to notify those other jurisdictions as well as the 
licensing or permitting agency and the applicant and provide an 
opportunity to comment on or object to the license or permit.
    Administrative regulations which predate the establishment 
of EPA describe these procedures.
    The president's infrastructure initiative seeks to increase 
the efficiency and effectiveness of environmental reviews for 
new roads, dams, pipelines, and other critical infrastructure.
    EPA strongly supports the initiative's emphasis on the use 
of advanced coordination and thinks that such coordination can 
play an important role in ensuring States and Tribes complete 
their water quality certification process on a time frame 
consistent with other planning and review activities.
    We support the president's recommendations regarding 
clarification of those provisions in the statute. Moreover, the 
agency has identified a potential clarifying action in its most 
recent regulatory agenda and may consider updates to its 2010 
handbook to assist States and Tribes in making informed and 
timely decisions.
    In conclusion, I would like to thank you, Chairman Upton, 
Ranking Member Rush, and members of the subcommittee for the 
opportunity to testify before you today.
    EPA looks forward to continuing our work with the 
subcommittee to foster protection of America's waterways and 
the public's health and wellbeing.
    I will happy to answer questions that you may have.
    [The prepared statement of Mr. Goodin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    Mr. Upton. Well, thank you all. Thank you all for being 
here and, again, presenting your testimony in advance.
    As we know, hydropower is a pretty big bipartisan--has a 
lot of bipartisan support and not only in the House but 
certainly in the Senate.
    And, you know, we've seen in this committee we've passed a 
number of hydro bills with strong bipartisan support, often by 
voice vote not only in committee but on the House floor as well 
waiting for the Senate where they are a little bit stuck but 
hopefully moving soon.
    One of the--one of the principles that we've moved through 
the committee here is that the lead agency, since we have all 
five you here, really ought to be FERC to manage where things 
are and I would just welcome a comment from you as to whether 
you agree that FERC ought to be the lead agency.
    And Mr. Turpin, we don't need to hear from you. Even though 
you don't speak for the agency, as you said, we'll presume that 
you are on that point but maybe just if you'd like to concur 
that FERC ought to be the lead agency on this one that we are 
working together. If you could give a response, yes or no, that 
would be great or expand on it if you'd like.
    Mr. Oliver.
    Mr. Oliver. The short answer, Mr. Chairman, is yes, our 
responsibilities within fisheries are really similar to U.S. 
Fish and Wildlife Service with regard to the ESA consultation 
aspect of it and we are rarely, if ever, and I don't this will 
change under the one Federal decision--the lead agency--we are 
cooperating and are a consulting agency.
    Mr. Upton. Mr. Sheehan.
    Mr. Sheehan. I would concur very much with what Mr. Oliver 
just shared. You know, certainly, we respect and look for that 
guidance out of FERC as we move through these processes now and 
I think that will continue.
    Certainly, we've got other laws--Endangered Species Act and 
all that both NMFS and ourselves have to address. But, you 
know, I think there's always more we can do together better and 
we look forward for feedback that comes from Congress itself to 
help us instruct that.
    Mr. Upton. Mr. Fisher.
    Mr. Fisher. Mr. Chairman, I would concur as well. We have 
an MOU in place with FERC--just renewed it a couple years ago, 
in 2016.
    We are a cooperating agency. FERC is the lead agency and it 
has worked well for us as long. As the Corps continues to focus 
on some internal 408--Section 408 permissions we'll be just 
fine with FERC as the lead agency.
    Mr. Upton. Mr. Goodin.
    Mr. Goodin. Thank you for the question, and EPA supports--
--
    Mr. Upton. Softball--it's a softball question.
    Mr. Goodin [continuing]. Coordinated activity and would 
concur that FERC is the appropriate lead.
    Mr. Upton. Now, I will say that FERC provided us with a 
list of 21 different pending projects. Some of them are fairly 
lengthy in terms of how long they've been in the queue. I think 
there's one that's been there almost, what, 18 years--I am 
sorry, 14 years.
    I don't know--Mr. Sheehan, you indicated that since 2010 
you all have seen 180 projects, you said in your testimony, 
move through the process. What's happening to some of these 
that have been longer than 2, 3, 4 years that are on that list 
of 21? Are there some additional steps that you're taking to 
focus on those? Are they particularly troublesome? What's your 
reaction on where we are as it relates to those?
    Mr. Turpin.
    Mr. Turpin. So those in the table we provided I think 
predominantly they're relicensing actions and so I think what 
we see there a lot of times are facilities that were built long 
before a lot of the environmental laws and so there's a lot of 
very complicated contentious issues that are involved in those.
    I think if you look at the list, a large part of them are 
in a very few number of States that their water quality cert 
process has a large implication for the timing of it and then 
some of them have areas--are in areas where there have been 
additional species listed since the completed its review and so 
we have to kind of go back and coordinate through that.
    So we do do outreach to all the entities involved on those 
to try to get updates and to try to help move the process 
along. But it always comes down to the priorities of those 
agencies and their resources.
    Mr. Upton. So I think each of you talked about the MOU that 
was--that was signed. Is there some effort to try and focus on 
those that have taken already longer than 2 or 3 years in the 
next couple of months?
    Mr. Turpin. So on FERC's staff's part, we are setting up 
the implementation plan for the one Federal decision with a 
rollout later this summer and, I mean, all that's going to be 
sort of across-the-board outreach to all the agencies involved 
to try to get things moving not just on those specific projects 
but on everything.
    Mr. Upton. My time is expired.
    I yield to the ranking member of the subcommittee, Mr. 
Rush.
    Mr. Rush. Once again, Mr. Chairman, I want to thank you.
    I want to direct my question to Director Turpin, and I 
mentioned in my opening statement I previously ordered an 
amendment on H.R. 3043 that would direct FERC and Federal 
resource agencies to convene a negotiated rulemaking within 90 
days of enactment with State and local representatives, Native 
Tribes, and other stakeholders.
    The purpose of this collaborative approach would have been 
to develop a process to coordinate all necessary Federal 
authorization and enable the Commission the make a final 
decision on a license within 3 years of receiving a completed 
license application.
    Director Turpin, in your opinion, how would this type of 
approach when stakeholders are brought into the process early 
on and their input is considered, how would it impact the 
application process?
    And once Director Turpin completes, I would like to ask all 
the other panellists if they had an opinion about the impact of 
this type of approach on the application process.
    Mr. Turpin. Thank you, sir. That essentially is an approach 
we take on a project by project basis. You know, there's a 
significant amount of outreach whether it's under the 
integrated license process or by the applicant on the 
traditional licensing process.
    That sort of outreach and negotiations are done on a case 
by case basis. We last did a more sort of programmatic approach 
like that I think in about the mid-2000s when we looked at the 
ILP process.
    And so we've gotten all the stakeholders in to sort of help 
design. That was a little bit more focused on relicensing as 
opposed to original licenses and I think since then we've seen 
a lot more originals come in.
    But by and large, the original licenses are done--
typically, the median time for those is well under 2 years--3 
years to start with. I think it's somewhere around 29 months on 
median.
    So collaboration with all of the parties is necessary. It's 
valuable in every aspect of the process and because of all the 
differing authorities and responsibilities it can't work 
without everybody coming to the table.
    Mr. Rush. Anybody else want to respond?
    I want to ask the second question here. Deputy Director 
Sheehan, how is the work of the Fish and Wildlife Service 
affected in instances where licensees provide incomplete 
information in their application? Are there State deadlines in 
place for applicants to submit all of the necessary information 
and what are the enforcement mechanisms where an applicant does 
not meet these deadlines?
    And again, I want to ask if any of the other members have 
any opinions on how incomplete applications impact overall time 
lines for final decisions.
    Mr. Sheehan. Thank you, Ranking Member. I think your first 
question or your question revolved around time lines--what are 
the requirements. We don't, at the Fish and Wildlife Service, 
impose times lines.
    We really are working under a framework of time lines that 
FERC, who's a lead on this effort, gives us and as a 
cooperating agency if we feel there is insufficient information 
on a permit application, we would return back to the applicant 
and try to get that as rapidly as possible.
    So I think that's how we try to move through this and that 
needs to be done timely on both our part and the applicant's 
part if we are going to keep the overall time lines in check, 
as was mentioned by Mr. Turpin.
    Mr. Rush. Anyone else want to respond? Mr. Oliver.
    Mr. Oliver. Yes, sir. Yes, sir.
    I would say as I--when some of these projects take what 
seems like an inordinately long time to get the process, it can 
be a number of reasons or the combination of several factors.
    But in many cases one of the most important, and this was 
mentioned earlier, is to get a complete package which to 
evaluate and which to consult on, and we have to have an 
application--license application package that has sufficient 
definition of the proposed action and in some cases the 
proposed action itself is not crystal clear and it has to have 
sufficient information upon which for us to do an evaluation 
and in many cases we get an application and we say we are 
sorry--it's not complete or it's not specific enough, and 
there's a back and forth process, and there's not a specific 
time line and perhaps that's part of the problem is that it can 
drag out because we go back and forth and eventually--and 
during that period new information can come into play.
    The proposed project action can change. New species can get 
listed during that time. A number of other factors can 
exacerbate that time. But it is important to get that initial 
complete application that very clearly describes the project 
and very clearly provides us the information on which to base 
it.
    And so getting that back and forth that occurs to get to 
that point can often take years.
    Mr. Rush. I want to thank you, Mr. Chairman.
    I yield back.
    Mr. Griffith [presiding]. I thank the gentleman.
    I now recognize the ranking member of the full committee, 
the gentleman from Oregon, Mr. Walden.
    Mr. Walden. The chairman of the full committee.
    Mr. Griffith. Chairman of the full committee. Didn't I say 
that?
    Mr. Walden. The ranking member.
    Mr. Griffith. Oh, sorry. Sorry about that.
    Mr. Walden. Yes. Good morning. Thank you for being here 
today to talk about hydro. I've got a couple of Oregon-specific 
issues, and I think we flagged them for you on these as we 
raise them. Obviously, we are doing a lot on hydro.
    But NOAA and NMFS have a lot of other authorities in my 
district and across the West. On Friday, Mr. Oliver, your 
agency finalized a year overdue grazing biological opinion for 
the Malheur National Forest allotments on the Malheur National 
Forest and I've repeatedly heard concerns about the process and 
concerns about the science used.
    As an example, I understand from your regional staff that 
there's no science behind using the three trampled reds as a 
threshold for take forest wide. Just that it is an easy way for 
the agencies to monitor, but there's no science behind this.
    As you know, ranchers and others had barely a week to 
review and comment on the 300-plus page document but they did 
their best.
    Can you explain how their concerns are being addressed in 
the final biological opinion?
    Mr. Oliver. I will try to address that, sir.
    First of all, we wanted to be sure that we got the 
biological opinion finalized by June the 1st in time for the 
traditional turnout for grazing.
    My understanding and--my understanding is that there are a 
couple of different ways. While there may be some question 
about the three trampled reds threshold for reinitiation, that 
was different or altered from the original one red per year 
that was at one point proposed.
    So that was one way in which we hoped to address some of 
the concerns or alleviate some of the concerns. There was a lot 
of contention over the stubble height issue, and I am not an 
expert on stubble height but we did----
    Mr. Walden. You may have to become one.
    Mr. Oliver. I am quickly becoming an expert on many of 
these issues, sir.
    Mr. Walden. Yes.
    Mr. Oliver. And but the stubble height issue was presented 
to us by the U.S. Forest Service--excuse me--support for a 
standard less than six inches is--there's no support for a 
standard less than six inches where you have habitat that is 
presently degraded and where you have a ESA-listed fish 
present.
    Now, that may be different in areas where--such as the Blue 
Mountain Forest plan where it may allow a lesser number in 
certain conditions but that's only where stream conditions are 
good.
    And so that was one of the issues that I know was raised. 
But what we did change is that the stubble height requirement 
would be considered in the context only of individual--only in 
individual pastures and therefore reinitiation would only occur 
for violations in successive years on the same pasture and such 
that we would only reinitiate consultation on the subject 
pasture as opposed to the whole forest. So those were a few 
ways----
    Mr. Walden. Welcome to my world.
    Mr. Oliver [continuing]. In which we addressed those 
concerns and we certainly--the other issue was to delay turnout 
until July 1st in response to two incidences of noncompliance. 
But we didn't want to delay that until July 1st, which is one 
of the reasons we got that finalized this Friday on June 1st.
    Mr. Walden. Thank you for that.
    What I would like is the science behind this determination 
about the reds. Meanwhile, we have, you know, predators in the 
river devouring all kinds of fish.
    You have got one cow steps in one red and all of a sudden 
you may--it may be OK, but two may be a reconsultation. Three 
may be a disaster.
    I mean, there's a lot of frustration out there, as you 
know. The issue of stubble height--and I've been through a 
number of briefings out in my district and parts of the 
planning process there were requirements initially for stubble 
heights that, frankly, probably couldn't be achieved if nobody 
was within 100 miles because the grass just never grows that 
high.
    And I just--you know, when you--these communities are 
pretty upset and when it comes to taking all the hits, applying 
it all to grazing, when it comes to trying to do a balanced 
effort to restore salmon and steel head fishery and they really 
want a little more face to face time with NMFS and we don't 
feel like we get it in eastern Oregon.
    And so I appreciate the conversations and participation 
around the Blue Mountain Forest plan, but we've got a few other 
things at some point--and I know you're talking about hydro 
today but we'll need to get together and discuss because this 
is a life and death matter for the ranchers out there and a lot 
goes on out in the ocean.
    We are told it's just a black box--can't do anything about 
it--and then we watch the fish get devoured by the sea lions 
coming up the river and then the only thing you can do is shut 
down cattle operations and blame it all on them and we are not 
going to put up with that.
    And so we'll talk more, but my time has expired. With that, 
I yield back.
    Mr. Griffith. I thank the chairman of the full committee, 
and I respectfully request great forgiveness for prior----
    Mr. Walden. Did you want to revise and extend your opening 
remarks?
    Mr. Griffith. I do. Yes, sir. Absolutely. Thank you very 
much.
    I now recognize the gentleman from California, Mr. 
McNerney, for 5 minutes.
    Mr. McNerney. I thank the Chair and I thank the witnesses 
this morning.
    Mr. Turpin, several groups filed motions with the 
Commission during the relicensing in 2005 for the Oroville 
facility, arguing that FERC should require a licensee to 
install concrete-lined emergency spillway because the existing 
structure was not adequate. The Commission did not require 
this, but it was certainly a concern that needed much more 
serious consideration.
    The facility was not able to handle the high flow rates 
encountered during the flood and we came very close to 
catastrophic damage.
    What adjustments have been made given this experience to 
ensure that dam safety issues raised during the relicensing are 
thoroughly investigated?
    Mr. Turpin. So after Oroville we had gone out to both 
request, of course, that DWR put up a forensics team and we 
also stood up a team internally of independent consultants to 
look at our own process to kind of go through the inspection 
process, our review process to see is there something that we 
could have done on our side that could have headed that off or 
is something that we are routinely missing.
    That panel is still investigating and I expect results back 
sometime this summer or later this year and with that we'll 
then go through our program and sort out what changes we need 
to make.
    Mr. McNerney. OK. Please contact my office with those 
results and let's go over those together.
    Mr. Turpin. Absolutely.
    Mr. McNerney. Mr. Turpin, again, on another subject, any 
reason why legislation would not require applicants to provide 
all necessary information for FERC to make timely decisions?
    Mr. Turpin. I think the question of what's the necessary 
information is a bit hard to pin down in regulations. Most of 
the time we do have regulations that lay out what the minimal 
filing requirements are and what the sort of first shot it.
    But oftentimes the project issues are so specific or are so 
varied that there is a lot of back and forth data requests that 
need to happen as issues are raised through the NEPA process so 
that folks can get the right data.
    I don't think it would be possible to lay out this sort of 
a checklist of everything that anyone could ever think that 
might apply.
    I think to do that you end up--that one-size-fits-all ends 
up with sort of an over complexity for a lot of projects that 
isn't needed, and we tend to handle it with a minimum level to 
get in the door and then additional data requests.
    When we have applicants that provide information quickly or 
that are responsive, the process works very well. When we have 
applicants that don't provide it or we have agencies that don't 
let folks know what information it needs to have, that tends to 
gum it up a bit.
    Mr. McNerney. OK. So you can work on a case by case basis 
to make sure the applicants are providing the information that 
you need as a licensing agency.
    There's a measure in H.R. 3043 that grants FERC the 
authority to set deadlines for decisions by Federal agencies. 
Do you see that as necessary?
    Mr. Turpin. I think in every--in every circumstance I've 
seen language like that. I mean, there's a couple issues. So, 
first, the Commission has routinely done that.
    I mean, under the FPA and the NGA the Commission already 
attempts to set schedules for agencies to kind of keep the 
process moving. But none of that overrides these agencies' 
independent authority for the processes under their own 
statutes.
    Most every language I've seen that's been enacted or been 
proposed along those lines includes language that points to the 
fact that these other statutes have their own independent time 
lines and that this can't override that.
    So you have sort of always got that out or that conflict 
that's built in.
    Mr. McNerney. Thank you.
    Has implementation of FAST-41 been good? Has the outline 
dashboard been helpful in agencies' project applicants?
    Mr. Turpin. I think it has been good. There hasn't been a 
lot of projects that have nominated themselves for coverage. 
The ones--the majority of the ones that are on there were ones 
that were open at the time that the law was passed.
    The effect of that as well as the administration's interest 
in infrastructure I think has really been to get agencies to 
pay attention to the sort of maybe smaller activities that feed 
into the large licensing process. And so we have seen a lot 
more diligence and a lot more turnover in the information that 
comes in and then processes moving forward.
    Mr. McNerney. Given that hydropower licenses are awarded 
for long periods of time, significant changes can happen due to 
climate or other causes.
    How does FERC account for these changes during 
consideration of a license renewal--of long-term projection of 
change?
    Mr. Turpin. So there's a couple of ways.
    First, we are basing our look at impacts on the historical 
record. So, you know, as climate change, being a geologic sort 
of scale event, anything that's been going on is already going 
to be reflected in the projections that go forward.
    Secondly, there are reopeners in cases as well as the 
general approach is one of adaptive management. When you're 
issuing a license that's 30 to 50 years long you have to have 
processes in there that will allow for adjustments throughout 
that life or else it's just not possible that to do anything 
that makes a lot of sense.
    Mr. McNerney. OK. Thank you, Mr. Chairman. I yield back.
    Mr. Griffith. I thank the gentleman.
    I now recognize the gentleman from Ohio, Mr. Latta, for 5 
minutes.
    Mr. Latta. Thank you, Mr. Chairman, and thanks very much to 
our panel of witnesses here today. Appreciate the testimony 
you're giving today.
    Mr. Ryan, if I--Mr. Fisher, if I could start with a 
question to you. A common complaint that I hear from private 
industry is that environmental regulations are often redundant 
and needless costly.
    States requiring environmental reviews before issuing 
Section 401 water quality certification for hydropower 
developments. FERC requires a comprehensive environmental 
review of proposed hydropower developments before it will issue 
a license for them.
    If one of these--those projects is to be built on a Corps-
owned project, the developers often must repeat the 
environmental review, adding time and cost to the development 
with no gain to the environment or the public interest.
    In reading your testimony you referenced the need to 
eliminate redundant unnecessary reviews, concurrences, and 
approvals. And so the question is what is and how is the Corps 
going to accomplish this goal for FERC license hydropower 
projects.
    Mr. Fisher. Yes. Thank you, sir. It would be--so you're, 
obviously, aware of how this works. If an applicant approaches 
the Army Corps, has a FERC license to be on a Corps project, 
our role in this is how it's going to modify that project and 
we have to give permission for an applicant to modify the 
structure itself or the operation of it to allow for hydropower 
while not impacting the other missions with flood control or 
commercial navigation.
    The Corps is doing some things. They've delegated some of 
those decisions down to the district level so there's not 
multiple levels of review so we can hopefully make those 
decisions quicker.
    We are trying to eliminate duplication within a division of 
the Corps--it's the planning branch or the real estate division 
to make sure that both of those parts of the Corps district are 
not taking separate chops at an application so that we are 
streamlining that process as well.
    And we also want to do more public facing communication, I 
think, with the applicant themselves. The Corps, obviously, 
tracks these 408 requests and want to make sure that the 
applicants are aware of where their application is in the 
process at any given time. So, hopefully, those will reduce 
redundancies and move things quicker from the Corps 
perspective.
    Mr. Latta. Let me just follow up real quick just on those 
four points that you brought up there. When did you start that 
process of, you know, delegating down to the district level and 
also eliminating the duplication within the branches and the 
public safety and also the apprising, you know, the applicants 
out there. How long have you started doing that?
    Mr. Fisher. It's relatively new. I think when the new 
administration came in, Corps leadership recognized the focus 
on infrastructure and even before the one Federal decision MOU 
was signed by the relevant agencies, some of the civil works 
leadership at the Army Corps started pushing--delegating 
decisions down to the district level in trying to streamline 
those processes so that applicants might have a smoother 
process.
    Mr. Latta. Let me ask you another question, if I may. You 
also state in your testimony that the Corps stands ready to 
support the needs of non-Federal hydropower developments. You 
point to the Corps implementing improvements to the Section 408 
review process for private entities to develop hydropower and 
other alterations to Corps projects.
    Would you go into more detail about these improvements in 
the status of your implementation?
    Mr. Fisher. Sure. I think some of the ones I just outlined 
that's exactly what I was talking about--the delegating to 
districts and eliminating the redundant reviews of the planning 
branch and the real estate branch. So that's kind of what I was 
referring to.
    The second part of that question there, the Corps will 
continue to do that. I think the one Federal decision memo 
forces some of that.
    We are currently doing implementation plans as are the 
other agencies. Those are--those are due on the one Federal 
decision MOU in July.
    So we will, hopefully, see more initiatives and we'll 
continue to identify--as we talk to applicants that identify 
issues we will certainly consider those and the Corps will look 
to continue to streamline and eliminate any redundancies.
    Mr. Latta. Just out of curiosity, when you're delegating 
back to the district level on a lot of different projects I 
know of maybe on the hydro side but I've been involved with 
Corps.
    By getting it down to the district level how much time do 
you think you're going to save on projects?
    Mr. Fisher. So, sir, I actually--before this appointment I 
worked at a district level of the Corps office and you're 
talking about district, division, headquarters office, then a 
potential shop, even at the assistant secretary of the Army's 
office where I am now. So you're looking to take out two to 
three levels.
    So it could be weeks and months that we would be shortening 
the time. It's project specific, obviously, but it would 
certainly be shortened.
    Mr. Latta. Well, thank you very much, and Mr. Chairman, my 
time has expired.
    Mr. Griffith. I thank the gentleman. I appreciate him 
yielding back and now recognize the gentleman from 
Pennsylvania, Mr. Doyle, for 5 minutes.
    Mr. Doyle. Thank you, Mr. Chairman, and thank you to our 
witnesses today.
    Pittsburgh is home to three rivers--the Allegheny, the 
Monongahela, and the Ohio, and utilizing these water resources 
is incredibly important, and hydropower plays a critical role 
in our renewable energy portfolio.
    In Pennsylvania, there are many existing dams though that 
do not have hydropower and this existing infrastructure 
presents a significant opportunity to develop and increase our 
hydropower capacity.
    Mr. Fisher, how is the U.S. Army Corps of Engineers working 
to prioritize the establishment of hydropower on existing dams 
and what are some of the challenges in this process that the 
Corps has identified and is addressing?
    Mr. Fisher. Sir, I don't have the numbers in front of me. I 
actually spent time in the--actually I was just in Pittsburgh 
for the past couple of days, to be honest with you and I know 
that there's a lot--I think 11 reservoirs that--Corps-owned 
reservoirs that feed down in Allegheny County as well as the 20 
some locks and dams that feed the system as well. All are--some 
of those do have hydropower and others have pending licenses or 
are in the process of looking at that.
    The Corps simply wants to continue working with those 
applicants on the permit process, work with FERC. FERC is the 
lead agency. We want to--if somebody proposes to modify a Corps 
project, our main objective there is to make sure that those 
modifications are not impacting the flood control--flood risk 
management operations that affect downtown Pittsburgh there at 
the Point while at the same time--it's about balance, right.
    It's about balancing that need for the hydropower with the 
other environmental concerns and improving the economic 
environment as well.
    Mr. Doyle. Does the Corps intend to construct anymore 
hydropower projects on your existing dams?
    Mr. Fisher. We are certainly--the Corps of Engineers is a 
self--there are projects federally, yes, but I think you're 
mostly referring to non-Federal.
    So we intend to, yes, as applicants approach us with what 
is private investment and these sort of non-Federal investment 
in hydropower at a Corps facility, yes, we would certainly want 
to pursue that with them.
    Mr. Doyle. So when a non-powered dam is developed for 
hydropower, how does the Corps of Engineers work with FERC on 
the licensing and are there opportunities for your agencies to 
coordinate earlier in that process to increase coordination?
    Mr. Fisher. The MOU we've signed with them and just 
recently renewed it in 2016, yes, it's about early 
coordination, most definitely, and the two-phase approach there 
with the FERC license as well as the Corps 408 review. And, 
certainly, a direct question was asked earlier about 
insufficient information on applicant--applications so I would 
certainly also encourage that the applicants--to reach out 
early to your Corps district and make sure you're providing the 
proper information to us as well.
    Mr. Doyle. Let me ask, Mr. Fisher, you and Mr. Turpin. 
Given the potential in adding hydropower to existing dams, do 
you see any potential to expanding utilization of pump storage 
capacity as well?
    For example, in my region, we have substantial existing 
locks and dams infrastructure. What potential do you see for 
expanded pump storage capacity?
    Mr. Fisher. Sir, that might be one I have to get back with 
Corps staff and review and come back to you on. As you 
mentioned, in your area there's--the Allegheny River has eight 
locks and dams going up it and the Mon does as well as well as 
all the ones on the Ohio River.
    So there's certainly Corps--a lot of Corps infrastructure 
there. The capacity might be available. I am going to have to 
come back to you after I speak with Corps headquarters staff to 
get you a more firm answer.
    Mr. Doyle. Mr. Turpin, do you have anything to add to that?
    Mr. Turpin. Yes. There's a tremendous amount of interest, I 
think, on the private sector with pump storage. I know we have 
a number of applications or processes underway. I don't know an 
exact number and I have to get back to you. But it does--you 
know, given the benefits of storing the energy it does--it does 
always present good opportunities for the Nation.
    Mr. Doyle. Mr. Fisher, you mentioned in your testimony that 
the Corps recently made several changes to the Section 408-
related non-Federal use of Corps civil works process. What's 
the time line for finalizing that draft policy?
    Mr. Fisher. So as it relates to one Federal decision, I 
think all of our agencies are looking at July--or July 9th, I 
believe, is the deadline for that.
    But overall, separate from one Federal decision, the Corps 
continues to look. Anytime an applicant approaches us with an 
idea, there's not necessarily a time line to get it done but we 
want to consider that and see--always continually look at how 
we are doing this 408 process and make continual improvement in 
it at any time.
    Mr. Doyle. Thanks.
    Mr. Chairman, thank you. I will yield back.
    Mr. Griffith. I thank the gentleman for yielding back.
    I now recognize the gentleman from Virginia, myself, for 5 
minutes. I am going to pick up some of or similar to what Mr. 
Doyle was just asking related to pump storage.
    I had a bill last year on closed loops pump storage and the 
question that he asked was what is the potential. Of course, 
what we are looking at is maybe using some of our old coal 
mines and having the closed loop pump storage in there or some 
other closed loop pump storage possibilities.
    But the bill was put in to kind of streamline the 
regulatory process. So I am guessing I need to know both on Mr. 
Doyle's potential projects where there's already a lot of 
infrastructure or on others.
    What is FERC doing, or any other agency that wants to 
answer, to try to streamline the regulatory process to make it 
easier if you already have the infrastructure there as we do in 
the mines. There's already electricity and roads and all kinds 
of things.
    In Mr. Doyle's case, he's already got the dams built. What 
are we doing to try to streamline that regulatory process so we 
can make this a reality? because there is a lot of potential.
    Mr. Turpin. I would say that we approach that--well, 
fundamentally we are always looking for ways within the 
existing authority of the Commission to make things move along 
better.
    But also on a case by case basis, as we have projects, 
especially for projects that don't involve a lot of issues or a 
lot of infrastructure additions, they, by their very nature, 
end up sort of being streamlined in the process.
    So we did the 2-year pilot program a couple years ago, a 
report to Congress on that, and there I think that demonstrated 
that, under the existing processes, it is not a stretch at all 
to get things done under 2 years and even faster when you have 
got something that doesn't involve a lot of issues, that 
doesn't involve a lot of new infrastructure.
    Mr. Griffith. Well, and I would say, and I think I speak 
for Mr. Doyle as well, that if there's something that you think 
that we need to do in Congress, some additional authority or 
some tweaking of some regulation, we are not going to do 
anything crazy. But don't hesitate to let us know if there's 
something we can do to be of assistance on that as well.
    I appreciate that. Does anybody else want to comment on 
that topic?
    All right. Sticking with you, Mr. Turpin, I also have a 
little bill in called the SHORE Act. I picked it up from Robert 
Hurt. It's an issue in our area where FERC has come in and said 
to the power dams, electric power companies, you have to do 
this, that, and the other along property lines, and we have all 
kinds of issues that we've brought up with you all.
    I am just wondering what can we do to assure that people 
who own the land adjacent to lakes can use that property as 
they see fit and, of course, it's a big--one of the reasons 
people like to have those projects is oftentimes it's a big 
economic development tool for a region when you suddenly have 
the recreational facility available.
    So what can we--what can we do to help there?
    Mr. Turpin. I think a lot of those sort of hot issues 
around that topic come from the fact that it's predominantly a 
land rights issue between the land owner--the adjacent land 
owner and the power company that has either the flowage 
easement or the deed to the--where the high water mark is.
    The Commission is not involved in adjudicating those 
property rights. So when a license is first issued, the 
Commission looks at, within the property boundary, to balance 
all of the recreation and development uses around there.
    But it's really up to the applicant who owns that land to 
then monitor and to be certain that those things occur within 
their property.
    Mr. Griffith. But here's what we've been discovering is is 
that FERC is saying you have to do this, that, or the other, 
and folks are--to the power company.
    So the rules have changed within the last 10 years and at 
least the power companies are coming in and saying, no, wait a 
minute, you have to keep this clear--you have to do this, that, 
or the other.
    And what is interesting is de facto you are actually, maybe 
not intentionally, making some property rights decisions 
because--I happen to know of one lake in the region where when 
the power company acquired--decades ago acquired the land 
titles they did three--must have had three different people 
working on it. So there's three different sets.
    Some places they got the fees simple--some places they just 
got an easement to flow onto the water and that changes what 
can be done.
    So if they own it outright, got you--they've got the whole 
thing. But if there's only an easement, I would submit that in 
that situation a person can build out onto their own property.
    It just happens to be in the water, which works perfectly 
fine if you want a boat dock. But they're being told in some 
places, wait a minute, we don't want a boat dock there and it's 
creating some conflicts. So I would just make you aware of 
that.
    I see my time is up and I yield back, and now recognize Mr. 
Tonko of New York for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair, and thank you to our 
witnesses for testifying on an important topic here today.
    I believe we all want to avoid unnecessary delays in the 
hydro relicensing process and, without a doubt, complaints 
about long licensing processes have persisted for some time--
for years.
    It is my understanding that over a decade ago, FERC created 
the integrated licensing process, or the ILP, to address many 
of the same issues that we are discussing here.
    So Director Turpin, can you explain the purpose and 
benefits of the ILP, please?
    Mr. Turpin. Sure. It was developed, I think, in looking out 
for a large upcoming relicensing workload that we were 
anticipating in the--in that sort of mid-2000 era.
    The primary benefits of it is it gets a lot of people to 
the table early. In fact, all of our processes do that. We try 
to get folks to the table early.
    The ILP tends to have a much more structured approach to--
and a much more driven approach for schedules to try to get all 
of the stakeholders to commit to meeting a lot of, you know, 
information points or consensus points in that process on a 
very tight time line or a very strict time line so that 
everybody has some expectation of what's going to be the full 
schedule.
    It also includes a dispute resolution process to be used 
when there are disputes over study information needs and study 
plans.
    Mr. Tonko. And of those structured points, which--are there 
any that are the most meritorious here?
    Mr. Turpin. In all honestly, I am not as familiar with each 
step of that process. So I would have to--I would have to get 
back to you on that.
    Mr. Tonko. OK. Thank you.
    And generally, how often is it used today?
    Mr. Turpin. By regulation, it was--it is the default 
process. But only about a quarter of the projects use it. About 
68 percent of projects come in and request to use the 
traditional licensing process.
    I mean, it really is up to the applicant or the licensee to 
try to take their shot at saying which of the three license 
processes best meets their circumstance and to work with the 
stakeholders to sort that out.
    My suspicion is that a large part of the reason the number 
is so high right now is we've just hit a patch of a lot of 
projects that don't have--the stakeholders don't see it as the 
ILP schedule being advantageous.
    Mr. Tonko. All right. And do any of our other witnesses 
want to weigh in? Have you had any experience from your agency 
perspective with the ILP and generally what's that about?
    Mr. Oliver.
    Mr. Oliver. If I could comment, sir. We strongly support 
the process and our experience when it's being used is that, as 
I understand, it's a two-phase process and that prelicensing 
part of the process where we are able to interact with the 
other agencies that are involved with State entities, 
municipalities, Tribal interests, environmental group 
interests, other stakeholder/landowner interests, when you're 
able to effectively engage in that part of the process and very 
clearly resolve a lot of issues and define the environmental 
impacts and alternatives, that makes the second part of the 
process where we actually have to do the NEPA analysis and the 
Endangered Species Act consultation much more timely and smooth 
process.
    Mr. Tonko. Well, that's good to hear, because it seems to 
me that the ILP can speed up the process because it does front 
load information gathering and consultations, and enables the 
State and Tribal governments and Federal resource agencies and 
other interested stakeholders to start coordinating much 
earlier in the process this includes putting licensees on 
notice about the information and studies required in order for 
agencies to review the application.
    And I heard a lot of discussion and I just want to state 
that it seems to me that everyone agrees that in order for the 
licensing process to go smoothly it is important to determine 
all the necessary information and include interested 
stakeholders earlier on in the process and I think that's an 
assessment that we all share.
    I believe the ILP was created to address many of the same 
issues we are discussing now and debated last year in Hydro 
Power Policy Modernization Act.
    I am sure that there are things that can be done to improve 
the ILP process but we should be looking at ways to further 
encourage its use rather than strictly seeking to weaken 
environmental laws or severely limiting Federal, State, or 
Tribal partners from completely--totally from their reviews.
    Moving to another potential cause for delays to your 
agencies or your counterparts in State government, to what 
extent has insufficient staffing or resources caused delays in 
applications or permitting reviews?
    Mr. Turpin. At the Commission, there's not--I don't think 
we've had a staffing problem on the hydro side. We've got a 
very large upcoming relicensing workload and that should start 
kicking up in 2019.
    So we are looking at that. But we have the options of using 
third-party contractors or direct contracts to augment staff. 
So I don't think that's been a huge impact for us.
    Mr. Tonko. Anyone else want to comment about the impact of 
resources or staffing?
    Mr. Sheehan. Yes. Thank you, Congressman.
    The Fish and Wildlife Service--first of all, we need to 
make sure we prioritize these right and in the right time 
lines.
    But the president has recognized this need and the 
president's fiscal year 2019 proposed budget he's proposed an 
increase for energy consultation for the very type of work that 
you're describing, and if that makes its way through Congress I 
think it will only broaden our ability to react timely and make 
sure that we have this staffed in the way that we need.
    Mr. Tonko. Well, I see I am way over my time. So, Mr. 
Chair, I apologize and I yield back.
    Mr. Griffith. I thank the gentleman and now recognize the 
gentleman of Ohio, Mr. Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Fisher, coming back to you, our committee has listened 
to testimony from companies that express concern over the 
predictability of the permitting process when adding hydropower 
to a Federal dam.
    For instance, we've heard that the Corps might prescribe a 
different water quality standard than FERC late in the 
permitting process, which can significantly affect the 
financial viability of a hydro project.
    Is there any way the Corps can help provide a bit more 
certainty when making this determination?
    Mr. Fisher. Sir, I think water quality mission isn't 
necessarily the most important thing to the Corps regarding 
these applications. We are mostly looking at the--how it's 
modifying the dams.
    So if there's a lock and dam on the Ohio River and you have 
an applicant that wants to put a hydropower at the foot of that 
dam, we certainly have a water quality staff that looks at 
these things.
    But we are mostly concerned with how they're modifying the 
project. So that's where most of our concerns would lie.
    Mr. Johnson. Well, the question--I mean, the problem lies 
in that a different water quality standard than FERC. I mean, I 
don't understand why two Federal agencies have a--would have a 
different water quality standard for adding a hydro project to 
an existing dam.
    Mr. Fisher. Certainly. It could be how the water quality 
impacts--you're probably well aware of some of those locks and 
dams on the Ohio River and how old they are and the aging 
infrastructure problems the Corps faces.
    So we would be looking at water quality from the standpoint 
of how it affects those projects.
    Mr. Johnson. Doesn't FERC have that information too, I 
mean, how old these are?
    Mr. Fisher. Sure. It's certainly in our MOU----
    Mr. Johnson. Well, can the Corps be more up front with its 
standard when FERC is working through its side of the 
permitting process?
    Mr. Fisher. Sure.
    Mr. Johnson. Can you guys communicate so that it doesn't 
drag this thing out?
    Mr. Fisher. Certainly. We want to, no doubt, work with FERC 
under our MOU to make sure that we are providing them with all 
of our information and vice versa and then make sure that the 
applicant is aware of that information as well.
    Mr. Johnson. OK. All right. Well, thank you.
    Mr. Sheehan, as you know, it's often more difficult to 
relicense existing projects on dams that predate our modern 
environmental laws and regulations.
    So how do you approach this issue and what can be done to 
ensure that your agency's license conditions are achievable and 
cost effective, given the age of some of our dam 
infrastructure?
    Mr. Sheehan. Thank you.
    I think there's a variety of things. You mentioned aged 
structures that predate many environmental laws or even 
processes--things that may not even necessarily be a law, how 
we address its passage and those sorts of things.
    As these come to us now, we do make those evaluations. We 
do look at the economics that are involved and how those may 
impact the project applicant and we try to be wise and create 
balance.
    We've approved or worked through about 400 projects since 
2000. In specific terms for fish passage, about 100 of those 
required either new or some modification of a fish passage 
structure, you know, to get them compliant or more up to date.
    I do think we need to be wise and I think we need to make 
sure at a top level that we don't let our staff get ahead of 
the processes as far as requiring what--more than what needs to 
be required to fulfil those project needs, and I hope we're 
going to have that.
    Mr. Johnson. OK. Well, continuing on, you mentioned in your 
testimony that environmental reviews are conducted at the field 
level where most of the coordination between other agencies and 
stakeholders takes place.
    What happens when there's a disagreement about a study or a 
proposed licensing condition?
    Mr. Sheehan. Well, first of all, we try to elevate those as 
best we can and I--you know, often the applicants will elevate 
those for us.
    There was some discussion earlier today about some of these 
California projects that are many years past their licensing 
date.
    Yesterday, I had a good phone call with our California 
field office--the individuals working on that to try to get to 
the bottom of is this something that's being caused by Fish and 
Wildlife Service or other partners through this process.
    I think we--you know, again, it's a cultural process. It's 
a prioritization process and we've got to make sure we do it 
right.
    Mr. Johnson. Is it--do you think it would be helpful to 
more formally outline a dispute resolution process so that the 
head of the agency can get involved quicker? Would that--would 
that expedite and make it more efficient?
    Mr. Sheehan. Certainly, anything we can do to make upper 
level management aware of these situations and try to help to 
resolve those is always going to be part of the process.
    Mr. Johnson. I would encourage--I would encourage the 
agency to look at how to do that.
    Mr. Sheehan. Thank you for that suggestion.
    Mr. Johnson. I yield back, Mr. Chairman.
    Mr. Griffith. I thank the gentleman for yielding back.
    I now recognize the gentleman from Iowa, Mr. Loebsack, for 
5 minutes.
    Mr. Loebsack. Thank you, Mr. Chair, and I do want to thank 
the panel for being here today.
    Iowa is an interesting State in many ways, but I think we 
are kind of unique in some ways for our energy and electricity 
production.
    Some of you may know that in Iowa close to 40 percent of 
our State's electricity is coming from wind and then we've got 
hydropower and we've got coal.
    We've got natural gas. Got a lot of different components to 
our--to our energy portfolio, and we are seeing solar grow more 
and more as well. So I am very proud, obviously, of my State 
and my district in particular.
    But we are talking about hydropower today and this has been 
a great hearing. Learning a lot about this and how we can 
streamline regulations.
    But in my district I do have the Mississippi River and it 
starts at--those of you who don't know the geography that's OK, 
but it starts at Clinton in the north of my district and then 
goes all the way down to Keokuk, in fact, on the Mississippi 
River--the lock and dam in Keokuk, which is right on the border 
with Missouri and Illinois.
    We've got a hydro plant that's produced an enormous amount 
of clean energy since 1913. Currently, the plant does produce 
enough energy to power about 75,000 homes and I visited that 
plant in the past.
    And I've also got the Red Rock Dam at my district. It's 
located right there at the Army Corps Red Rock Dam and they've 
got a hydroelectric project there.
    I've been there at least a few times since that began, and 
when that's completed the project is estimated to produce about 
178,000 megawatt hours, or enough energy to power 18,000 homes. 
So it will be that--much of that area if not that entire area 
around Pella, Iowa.
    And it's really important. It's created jobs and, 
obviously, it's going to bring electricity to a whole lot of 
homes. But it's taken a long time to complete.
    There's no question about that. That's why what we are 
talking about today I think is really important in terms of 
streamlining the hydropower licensing process.
    I am also very interested to know more of what we can do on 
the Mississippi, much like Congressman Doyle, what he was 
talking about with respect to the three rivers there in 
Pennsylvania.
    So I guess I want to address my concerns to you, Mr. 
Fisher, primarily and if you can't answer all the questions 
today, I get that. That's not a problem. We can, you know, get 
some information from you in writing.
    I guess--I guess I just want to ask at the outset hasn't 
the technology risen to a level where the Mississippi River is 
now an economically feasible option for hydropower expansion, 
especially at these locks and dams?
    Mr. Fisher. I probably should speculate a little bit there. 
I am not an expert on the technology. But yes, I think in the 
industry the technology has certainly increased. A lot of it is 
still going to depend on the flow, right.
    If you have a private applicant approaching the Army Corps 
of Engineers, we are not going to just alter the flow rates 
through the Mississippi River just to accommodate that 
applicant. We still have to manage our flood risk management 
mission as well as the commercial navigation that certainly 
flows on the Mississippi.
    But yes, I believe there are advances and we certainly want 
to work with any applicant and FERC as well to drive that 
economy in your area.
    Mr. Loebsack. And the Corps is trying to do that at the 
Rock Island Arsenal. We've got a small project there. But a 
project nonetheless where they're going to be able to generate 
some significant electricity, I think.
    So what are some of the challenges, if you will, of adding 
hydropower generation to the existing dams, particularly some 
of the older ones on the upper Mississippi?
    Mr. Fisher. I think that's exactly it, sir. Old ones, 
right--aging infrastructure. As we're--as we are considering 
hydropower on a Corps infrastructure somewhere, we've got to 
make sure that we are not further damaging an already 
deteriorating structure.
    We want to make sure those are bolstered. We want to make 
sure that whatever modifications we have to make to allow that 
hydropower to exist there is also not affecting all the other 
water resources there.
    Mr. Loebsack. Yes. And, look, I mean, I think all of us 
agree that we've got to have a huge infrastructure emphasis 
here in this country, going forward. We are not going to go 
forward this year, it looks like, with the president's proposal 
on a trillion-or-so-dollar plant, but locks and dams upgrading 
has to be a part of that.
    There's no question about it. These things are from the 
1930s, you know, and we've got to be able to ship more grain 
down the Mississippi and out to the Panama Canal and out to our 
trading partners in other parts of the world so that we are not 
out competed, if you will, by Brazil and various folks.
    But I just want to advocate for kind of a--something 
comparable to the one-dig policy when we talked about building 
roads and what have you and then making sure we don't have to 
dig again to put fiber in and all the rest.
    Do the same kind of thing with these locks and dams on the 
Mississippi. Take that back to your folks, if you will. I think 
it's a great suggestion to think about as we upgrade our locks 
and dams that we take advantage of that opportunity also to add 
hydropower so we don't have to worry about the old existing 
systems we have now that are crumbling in many ways and trying 
to deal with all that.
    But when we actually do the upgrade that we need and we are 
going to put a lot of money into this that we think about the 
expansion and think seriously about the expansion of hydropower 
as well.
    So just keep that in mind, going forward, and send that 
along to the folks at the Army Corps, if you would.
    And thank you, Mr. Chair, and I yield back my time.
    Mr. Olson [presiding]. Thank you.
    Mr. Long, 5 minutes for questions.
    Mr. Long. Thank you, Mr. Chairman.
    And Mr. Turpin, FERC, as you know, exercises jurisdiction 
over non-Federal hydropower projects and their licensing. Do 
you think the current hydropower licensing process involves too 
many agencies with too little accountability for making 
deadlines?
    Mr. Turpin. I think that's--there's such a wide variety of 
expertise that's required I don't know that I could say that it 
involves too many agencies.
    I think that all agencies don't prioritize the work on 
those the same way. I mean, for us, it's kind of easy. We are, 
in this regard, a single purpose agency. This is all we do is 
look at the non-Federal hydropower.
    Other agencies are balancing other mandates and other 
competing workloads and so I think----
    Mr. Long. Is there no way to streamline that? I mean, at 
one of the competing agencies?
    Mr. Turpin. I don't know that--I don't know that 
streamlining--I think keeping the focus on what ought to be the 
priority helps tremendously.
    Mr. Long. FERC is responsible for licensing projects and 
issuing exemptions, but the Commission is also responsible for 
ensuring compliance during the life of a project, as you know.
    In your opinion, can FERC adequately monitor all non-
Federal hydroelectric plants with the resources currently 
available to the Commission?
    Mr. Turpin. Yes. We have about 70 folks who do the 
licensing and about 40 or so that do just the compliance and 
administration of a license, and then another 120 that do the 
dam safety. So I think we are adequately staffed in that 
regard.
    Mr. Long. You do think you are? I mean, it doesn't matter 
the numbers if you don't think you're--you have the adequate--
you think you have adequate numbers?
    Mr. Turpin. We are consistently consulting with the 
chairman on that to talk about staffing levels.
    Mr. Long. OK. In your testimony you state that since 2010 
FERC has issued 180 hydropower licenses and small hydropower 
exemptions.
    Based on the number of hydropower licenses up for renewal 
on the horizon, is FERC's current pace of renewal capable of 
meeting the demand?
    Mr. Turpin. Well, the good thing about relicense is you 
know that they are coming. So, unlike originals where it's very 
hard to forecast what your workload is going to be, we've known 
what the workload is going to be for a while.
    And so we are continuing looking for ways to improve the 
process in-house and so to bring other resources to bear. So 
we've been preparing for this and I think, I mean, depending 
upon what issues are raised it may be a different scenario in 
each case. But I think, by and large, we've adequately 
prepared.
    Mr. Long. OK. Is there a way to hold agencies accountable 
when deadlines proposed by the president's executive orders and 
interagencies' memorandums of understanding or, I as I call 
them, memorandums of misunderstanding, are not met?
    Mr. Turpin. I think a large benefit of this approach is--
has been over the last year or so and is going to be that the 
decentralized agencies get sort of a reset and a refresh on 
maybe what ought to be priorities in certain things and that 
you don't have field staff that are making decisions that 
possibly the headquarters folks don't know about.
    Again, at the Commission we are relatively fortunate. We 
are all located in one building. I kind of get to know what's 
going on by just walking down the hallway. I don't have a lot 
of remote field offices.
    Mr. Long. OK.
    Mr. Oliver, there are a number of projects that have been 
delayed between two and 12 years because the National Marine 
Fishery Services has not approved licenses under the Endangered 
Species Act.
    Can you explain the reason for these extensive delays?
    Mr. Oliver. Sir, I alluded a little bit in my earlier 
testimony there can be a number of reasons for delays. They can 
range from the very beginning when we get a license application 
to having a complete project description--and adequately 
detailed project description and it's sufficient--a sufficient 
definition of the proposed action and information for us to 
begin that consultation process on.
    And there are instances where we've gone back and said, we 
are sorry but this is insufficient for us to do our 
consultation. That can result in a back and forth. There can be 
changes to the project action. There can be new information 
that comes to bear, scientific studies.
    We are dealing with the very issue with a particular major 
project right now where we have new scientific information 
that's likely going to compel us to request an extension of the 
NEPA deadline in order to adequately assess that information. 
There--sometimes we are held up by Clean Water Act 
certifications that are out of our control and there are times 
when we have to prioritize.
    We do over, I believe, 1,200 informal and over 300 formal 
consultations a year on various infrastructure projects not 
limited to hydropower, obviously. So there are resource 
limitations and prioritization decisions we have to make.
    And so there are a number of reasons that--and so I don't 
want to make an excuse--that it's sometimes just staff workload 
but there are a number of reasons or combinations of reasons 
for those delays, some of which are within our control or 
partially and some of which are not. But we are striving to 
make improvements in that.
    Mr. Long. OK. I am past my time. I do have other questions 
for Mr. Goodin and Mr. Fisher but I will submit them in writing 
to you all.
    And with that, Mr. Chairman, I yield back.
    Mr. Olson. Thank you, Mr. Long.
    The Chair now calls upon the gentleman from Indiana, Dr. 
Bucshon, for 5 minutes of questions.
    Mr. Bucshon. Thank you, Mr. Chairman. I think, hopefully, 
you all are gathering from the very diplomatic questioning that 
there's a high level of frustration among the constituents that 
we represent across the country and how Federal agencies not 
only, honestly, in hydropower but across the permitting process 
have a very high level of frustration that is projected through 
their elected representatives here today.
    And we've heard from developers, for example, in my 
district and across--really, across the country that on 
hydropower projects 10, 12 years to get--to secure a license, 
and this is on projects on existing dams.
    The dams are already there, but we are just trying to 
convert them--10, 12 years, some of which is, you know, from a 
multitude of different reasons as what has been described here 
today.
    You know, duplicative red tape, duplicative regulations, 
duplicative agencies looking at the project not in a--you know, 
in a timely fashion--red tape.
    And so, I mean, honestly--I was on Transportation 
Infrastructure for 4 years--I honestly believe unless Congress 
sets hard deadlines that the reality is, this is probably not 
going to change in any substantial way.
    You know, we've been debating this for decades and in 
that--in that vein I think, you know, I applaud the president's 
efforts and the administration established the one Federal 
decision policy by signing the Executive Order 13807. But there 
still, in my view, needs to be a modernization of our existing 
infrastructure and particularly in my--the area I am talking 
about is in the non-powered dams and conversion of those to 
hydroelectric power.
    And to do that in a timely fashion, I introduced and the 
House passed unanimously H.R. 2872, the Promoting Hydro Power 
Development at Existing Non-powered Dams Act, which would 
instruct FERC to issue a rule establishing an expedited 
licensing process for qualifying facilities that will result in 
a final decision on an application within 2 years or less, 
which is a hard deadline.
    Again, on Transportation Infrastructure we heard, you know, 
on bridges, on roads that we are streamlining--we are doing 
everything we can to streamline the process and it's getting 
better and all that.
    But, honestly, I think you have probably heard from the--
from what we are asking today the frustration is there. And, 
you know, the Senate--Senator Portman and Senator McCaskill 
have introduced a companion bill in the Senate and I hope the 
Senate passes that soon.
    So a couple questions. Mr. Turpin and Mr. Fisher, could 
you--what do you think the impact might be on powering--
potentially powering over the 50,000 suitable non-powered dams 
across the country might have on our power grid and also, 
honestly, might have on our emissions, because this is clean 
renewable energy, as well as do you have any thoughts on what 
it might do in the job creation area and also in the private 
investment area into our Nation's infrastructure.
    Just kind of a general question, Mr. Turpin.
    Mr. Turpin. Yes. That is, of course, the area with the 
largest potential for expansion on any hydropower. I know DOE 
did the study a number of years ago that identified a very 
large number of dams that--nonpowered dams that might be 
suitable.
    Mr. Bucshon. Fifty thousand, the number that I have.
    Mr. Turpin. So----
    Mr. Bucshon. That may be a little over generous.
    Mr. Turpin. Well, that's the number I was remembering too, 
so----
    Mr. Bucshon. It's the number I have so----
    Mr. Turpin. Yes. So it's, obviously, great benefits to the 
Nation in terms of what it might do to the grid. I mean, 
hydropower--you know, the benefits of that have been enumerated 
in a lot of different ways in terms of either black start or 
just sort of renewable energy kind of component to it.
    So in terms of economic and jobs it's not something I have 
enough of a background in to provide info on.
    Mr. Bucshon. I guess, I mean--I guess the point I am trying 
to make is that what you all do in the licensing process is not 
just--not just necessarily having an impact on, you know, 
actually the direct impact that you might have in getting 
projects completed but there is, you know, the impact of 
getting the surrounding big infrastructure projects in our 
country, as all of us know, whether that's on hydroelectric 
power, whether that's bridges, whether that's road, the overall 
economic impact of being able to produce big infrastructure 
projects in a timely manner is a substantial positive 
economic--has a substantial positive economic impact on our 
country.
    So I hope that that message comes across today that as 
quickly as we can get through the process the better it is for 
all of us.
    Thank you. I yield back.
    Mr. Olson. Thank you.
    The Chair now calls upon the gentleman from Michigan, Mr. 
Walberg, for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman, and thanks to the 
panel for being here.
    And what we've discussed so far is water over the dam, as 
they say. But I would like to go to some specific questions. 
That's what happens when you're so far down on the dais here.
    Mr. Turpin, the Commission has spent a fair amount of time, 
I understand, recently on making it faster to license very 
small hydro projects. Does FERC have any plans to find ways to 
speed up the licensing process for larger hydros?
    Mr. Turpin. Well, I think we are always looking for ways 
for improvement, as I said earlier, within the existing 
authorities that we've got.
    And, again, I think a large time it's not the process. It's 
the issues that are there. So I think getting folks to bring 
issues to the table on a specific project earlier and getting 
the stakeholders to identify the information needed to meet 
those needs is probably the single biggest thing that can be 
done to improve time lines.
    Mr. Walberg. So that would, I would assume, would involve 
FERC making sure that the appropriate questions are given to 
people who are submitting request for licensing, wouldn't you 
say?
    Mr. Turpin. Yes, that's correct. FERC and--as well as the 
other agencies that have statutory authorities.
    Mr. Walberg. Because that can--that can be just a major 
problem, as I understand it, understanding what in the world I 
am supposed to be taking care of to get that licensing 
received.
    So any way we can help on that, that would be super. Does 
FERC have any plans to put its recently revised license term 
policy into regulations or does it plan to keep that policy 
solely as a policy?
    Mr. Turpin. So I am not aware of any move to move--to make 
that a regulation. But I don't know that it needs to be. The 
Commission issued it as a policy to state that 40 would be the 
default and then with accommodation could kind of, depending on 
the circumstance, fluctuate the time line.
    I think with that policy issued it gives certainty to the 
industries to kind of what to expect, coming in.
    Mr. Walberg. Wouldn't regulation, though, provide greater 
certainty?
    Mr. Turpin. It does, but it also then provides no ability 
to adapt to unique circumstances. Whether you have multiple 
facilities in the same watershed that might need to have their 
terms aligned because they all have the same environmental 
impact or whether there are investments that are made that 
might warrant a longer term just so that folks can recoup the 
costs of having made those improvements.
    Mr. Walberg. OK. OK.
    There's been a regular group of licensees that have 
protected FERC's inclusion of certain costs related to non-FERC 
agencies into their annual hydro bills from FERC.
    Does FERC have any plans to clarify the rules governing 
what can be included and what can't?
    Mr. Turpin. Well, I don't have a very strong background in 
how the annual charges are done. I do know that--I am not aware 
that we have a lot of discretion as to--as to which agencies we 
charge on behalf of. I think that's enumerated in the--in the 
Federal Power Act.
    So that's certainly something I can look into and get back 
to you on.
    Mr. Walberg. I appreciate that.
    And then, finally, does FERC believe it would add value to 
the Commission to have the legal authority to resolve disputes 
between agencies during the licensing process?
    Mr. Turpin. We do quite a lot of work with that now and 
that's the entire intent, I think, behind the prefiling part of 
the ILP and it's always beneficial to have everybody kind of 
get to an agreement about what needs need to be met in studies 
before any actions are taken.
    Mr. Walberg. Anything that stands in the way of making that 
more efficient?
    Mr. Turpin. No, it's really--it really comes down to the 
willingness of the participants to collaborate and reach the 
consensus.
    Mr. Walberg. Thank you, Mr. Chairman. I yield back.
    Mr. Olson. Thank you.
    The Chair now calls upon the biggest advocate for 
hydropower in this committee, Mrs. McMorris Rodgers from 
Washington State. You have 5 minutes, ma'am.
    Mrs. McMorris Rodgers. Thank you very much. I want to thank 
the committee for hosting this hearing and everyone for being 
here today.
    As I know many realize, but hydropower is foundational to 
the Northwest economy, and I am proud to represent a district 
that is largely based upon carbon-free baseload. It's 
renewable. It's reliable and it's essential to our energy 
supply in the Northwest.
    Hydropower can be expanded nationwide by modernizing the 
inefficient permitting process. According to a recent report 
that was actually from the previous administration, only 3 
percent of the dams actually produce hydroelectricity and we 
could double hydropower in America without investing--or by 
simply investing in the turbines such that are needed to 
convert dams into hydroelectric dams.
    On average right now it takes 18 months to license a 
natural gas facility and it takes 10 years to relicense a 
hydropower facility. We can do better.
    I've heard from PUDs, co-ops, investor-owned utilities 
across the country that they would like to upgrade non-powered 
dams but are unwilling to risk spending millions of dollars on 
an uncertain and bureaucratic process.
    Even if we brought new dams online it would only burden the 
current relicensing process. Previous testimony by FERC's 
deputy associate general counsel testified that the Commission 
staff already had a full workload.
    It's obvious that the current process is broken. After 
hearing these concerns as well as other local stories from 
eastern Washington, I've introduced legislation, the Hydro 
Power Policy Modernization Act of 2017 and it passed the House 
earlier this Congress with 256 yes votes.
    The bill seeks to improve the coordination among agencies 
and provide FERC the ability to resolve interagency disputes.
    My legislation also increases communication between FERC 
and other agencies by requiring them to explain in writing when 
deadlines may be missed. This added step of accountability is 
crucial to keep an account of delays and avoid the increasing 
backlog of hydropower relicensing.
    Finally, we are also seeking to encourage investments at 
dams outside of the relicensing window. Currently, there is a 
small window to receive credit for making upgrades at a dam 
that can be included in the length of a new license.
    By allowing early action, newer technologies can be 
installed as they come online that can increase power 
generation or fish passage, or both.
    Before I move on to my questions, I quickly wanted to 
highlight the issues on the Colombia Snake River Dam system 
with current limitation over the 2014 biological opinion.
    I have introduced legislation to codify this common sense 
biological opinion that the previous administration supported. 
Included in the Energy and Water Appropriations bill is 
language that will effectively stop the court-mandated spill 
and I encourage the Senate to act on my legislation which 
recently passed the House and which codifies the current Bi-op.
    In the meantime, I am submitting questions for the record 
to both NOAA and the Army Corps requesting an update on aspects 
of the court-mandated NEPA review and the implementation of 
spill.
    Now to questions--Mr. Oliver and Mr. Sheehan, data from 
FERC shows that a number of hydro licensings are delayed 
waiting for a final EIS biological opinion from your agencies.
    Some of these cases have been delayed 5, 10 years, or 
longer. My office has even heard that agency staff have 
suggested that applicants may need to redo studies that are now 
stale or out of date--a situation caused by the agency itself.
    I think we can all agree that this is not good practice and 
ultimately delays beneficial mitigation measures that industry 
members would otherwise enact with the issuance of a new 
license.
    So I urge you to undertake a comprehensive review of this 
issue across your regional offices. For today, what are your 
thoughts on how your agencies can address this problem, and I 
would like to work with your office to have you report back 
your findings as well as your recommendations and a time table 
for when these bi-ops will be completed.
    Mr. Sheehan. Thank you, Congresswoman.
    At the Fish and Wildlife Service, I think there are a 
number of things. We've talked a lot today about one Federal 
decision. That forces us to get on some time lines and keep 
these projects advancing forward.
    Whether it's through our biological opinions or other 
processes, it will force us to make sure that we are being 
persistent and working with applicants or other co-operators in 
these efforts.
    But achieving time lines is critical and I think that your 
suggestion that we devise ways to better do that is well 
heeded. Again, processes being re-examined internally is where 
we are at right now.
    Mr. Oliver. I will echo what Mr. Sheehan said.
    We have been working I believe cooperatively with all the 
agencies that are on this panel over the, certainly, the last 
year that I've been here to explore mechanisms to streamline 
these reviews and consultations.
    We've had coordination occur through our participation in 
the Federal Permitting Improvement Steering Council, through 
interagency working groups relative to the executive order, and 
through interactions on specific projects that we are mutually 
engaged on.
    I think that we--NOAA and Department of Commerce--are 
developing a specific implementation plan to, in addition to 
the cross-agency MOU that was signed we are developing a 
Commerce-level implementation plan for the Executive Order 
13807, the one Federal decision.
    So I am hopeful that that will go a long ways toward 
getting at some of these issues that are frustrating you and 
other members of this committee.
    Mrs. McMorris Rodgers. OK. Well, unfortunately, I've run 
out of time. I do have some further questions, and I will get 
them to you in writing as well as a question to the EPA on 
Clean Water Act Section 401 that I need your attention on.
    I appreciate, again, the committee hosting this hearing 
today and really highlighting hydropower and the potential that 
it has to meeting America's important energy needs.
    Mr. Olson. Thank you.
    The Chair now calls upon himself for 5 hours.
    [Laughter.]
    You're paying attention. Five minutes.
    Welcome to our five witnesses. A special welcome to the 
witness who has an esteemed title back home that I will never, 
ever have--a native Texan--Mr. Oliver.
    Welcome. Now, as I understand it too, you went to a special 
school there called Texas A&M University--the Aggies. Is that 
correct?
    Mr. Oliver. That's correct, sir.
    Mr. Olson. So you understand that this is a compliment but 
I just want to say howdy and woop.
    Mr. Oliver. Gig 'em.
    Mr. Olson. OK. As you all probably know, my home State of 
Texas has only 23 hydropower dams. It's a minor source of power 
for our State.
    In fact, the State energy conservation office has basically 
said our good hydropower has been developed.
    And this is a question for you, Mr. Turpin, of FERC. Your 
office is responsible for drafting the environmental documents 
for infrastructure projects like LNG terminals and natural gas 
pipelines.
    Different issues in hydropower, but are there lessons 
learned--you can improve upon the permitting process with 
lessons learned from permits for LNG, natural gas--apply that 
to hydropower? Lessons you can learn?
    Mr. Turpin. Yes, absolutely. We are always trying to cross-
pollinate. I mean, that--both those infrastructure are handled 
by the office I work in and so ideas can flow back and forth 
freely.
    I think the things we've most is that the--what benefits 
the process and the time lines the most is having the early 
engagement of all the stakeholders and getting everybody to the 
table to identify the issues as well as to identify the 
information needs and then having the applicants meet those 
needs.
    Mr. Olson. The question for all your comments--Mrs. 
McMorris Rodgers had her bill pass the House, H.R. 3043, and an 
overwhelming bipartisan vote, and the goal of this legislation 
is for FERC to be the lead agency in these hydropower projects. 
We want to create more predictable, transparent, and an 
accountable licensing process.
    And so my question for all five of you is are we hitting 
the target? Is there something we are missing, lacking? Can we 
modify it before the Senate acts? Because we hope they act--
there's no guarantee--but they've got the bill in their court 
right now.
    So anything we should look to change on the bill we passed? 
Because I think it's a good bill but sometimes these things 
cause unforeseen consequences. So are you guys concerned about 
the text that we may modify?
    Mr. Turpin. Well, I have to admit that--I know we testified 
on it last April and we had a lot of technical calls with staff 
on it. But I am not familiar enough with it to give you that 
diagnosis today. But, certainly, we can look at it and get back 
to you.
    Mr. Olson. Mr. Oliver, the proud Aggie--any comments that 
we should address with this bill? Suggestions?
    Mr. Oliver. I have to admit, sir, I would probably have to 
give the same answer as Mr. Turpin. I am not familiar enough 
with the details of it to really provide you a comment. It's 
something I would have took at carefully and get back to see 
whether we could offer you some meaningful insights.
    Mr. Oliver. Aggie never lies, always tells the truth.
    Mr. Sheehan from Fish and Wildlife, any issues we should 
address, you think, with the bill that's out there--that passed 
the House?
    Mr. Sheehan. Well, certainly, I can't formally comment on 
the bill today but what I would probably say, and we heard a 
little bit earlier from Mr. Turpin, is we want to make sure 
that we don't tie our hands in some areas too tight so that as 
we have applicants come in with unique conditions that we don't 
legislate them right out of interest in a project.
    So I think it's critical that flexibility exists throughout 
any process that we create in Government.
    Mr. Olson. Thank you.
    Mr. Fisher.
    Mr. Fisher. I sound like a broken record here. I, too, did 
not really come prepared to address specific legislation but, I 
certainly want to work with the panellists here, huddle with 
Corps headquarters and to perhaps come back to you with a 
fuller response.
    Mr. Olson. Mr. Goodin, anything--concerns you have with, 
sir?
    Mr. Goodin. I would offer a similar answer. Happy to 
provide any requested technical assistance there. But would 
just emphasize the theme of early coordination being important.
    Mr. Olson. OK. Great. Thank you, guys. We are out of our 
time.
    Seeing no more witnesses, I would like to thank all the 
witnesses for coming today. I would like to introduce--ask 
unanimous consent to introduce for the record a document called 
a letter from the Western Governors' Association.
    Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Olson. Pursuant to committee rules, I remind Members 
that they have 10 business days to submit additional questions 
for the record, and I ask that witnesses submit their response 
within 10 business days upon receipt of the questions.
    Without objection, this hearing is now water under the dam 
and is adjourned.
    [Whereupon, at 1:08 p.m., the committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    [Mr. Oliver did not answer submitted questions for the 
record by the time of printing.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                     <all>
</pre></body></html>
